<html>
<title> - THE IMPORTANCE OF MAP-21 REAUTHORIZATION: FEDERAL AND STATE PERSPECTIVES</title>
<body><pre>[Senate Hearing 114-18]
[From the U.S. Government Publishing Office]


                                                         S. Hrg. 114-18
 
               THE IMPORTANCE OF MAP-21 REAUTHORIZATION:
                     FEDERAL AND STATE PERSPECTIVES

=======================================================================

                                HEARING

                               BEFORE THE 

                              COMMITTEE ON
                      ENVIRONMENT AND PUBLIC WORKS
                          UNITED STATES SENATE

                    ONE HUNDRED FOURTEENTH CONGRESS

                             FIRST SESSION

                               __________

                            JANUARY 28, 2015

                               __________

  Printed for the use of the Committee on Environment and Public Works

[GRAPHIC NOT AVAILABLE IN TIFF FORMAT]



       Available via the World Wide Web: http://www.fdsys.gpo.gov

                               __________

                 U.S. GOVERNMENT PUBLISHING OFFICE
94-977PDF               WASHINGTON : 2015

_______________________________________________________________________________________
For sale by the Superintendent of Documents, U.S. Government Publishing Office, 
http://bookstore.gpo.gov. For more information, contact the GPO Customer Contact Center, 
U.S. Government Publishing Office. Phone 202-512-1800, or 866-512-1800 (toll-free). 
E-mail, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="6e091e012e0d1b1d1a060b021e400d010340">[email&#160;protected]</a>  





               COMMITTEE ON ENVIRONMENT AND PUBLIC WORKS

                    ONE HUNDRED FOURTEENTH CONGRESS
                             FIRST SESSION

                  JAMES M. INHOFE, Oklahoma, Chairman
DAVID VITTER, Louisiana              BARBARA BOXER, California
JOHN BARRASSO, Wyoming               THOMAS R. CARPER, Delaware
SHELLEY MOORE CAPITO, West Virginia  BENJAMIN L. CARDIN, Maryland
MIKE CRAPO, Idaho                    BERNARD SANDERS, Vermont
JOHN BOOZMAN, Arkansas               SHELDON WHITEHOUSE, Rhode Island
JEFF SESSIONS, Alabama               JEFF MERKLEY, Oregon
ROGER WICKER, Mississippi            KIRSTEN GILLIBRAND, New York
DEB FISCHER, Nebraska                CORY A. BOOKER, New Jersey
MIKE ROUNDS, South Dakota            EDWARD J. MARKEY, Massachusetts
DAN SULLIVAN, Alaska

                 Ryan Jackson, Majority Staff Director
               Bettina Poirier, Democratic Staff Director
                            C O N T E N T S

                              ----------                              
                                                                   Page

                            JANUARY 28, 2015
                           OPENING STATEMENTS

Inhofe, Hon. James M., U.S. Senator from the State of Oklahoma...     1
Boxer, Hon. Barbara, U.S. Senator from the State of California...     2
Sessions, Hon. Jeff, U.S. Senator from the State of Alabama, 
  prepared statement.............................................    66

                               WITNESSES

Foxx, Hon. Anthony, Secretary, United States Department of 
  Transportation.................................................     5
    Prepared statement...........................................     7
Bentley, Hon. Robert, Governor, State of Alabama.................    31
    Prepared statement...........................................    33
    Responses to additional questions from Senator Boxer.........    44
    Response to an additional question from Senator Crapo........    46
    Response to an additional question from Senator Sessions.....    47
Shumlin, Hon. Peter, Governor, State of Vermont..................    48
    Prepared statement...........................................    51
Bergquist, Darin, Secretary of Transportation, State of South 
  Dakota.........................................................    55

                          ADDITIONAL MATERIAL

Statements of:
    Hon. Dennis Daugaard, Governor of South Dakota...............    68
        Responses to additional questions from:
            Senator Boxer........................................    73
            Senator Crapo........................................    76
    Hon. Dannel P. Malloy, Governor of Connecticut...............    79
    Hon. Deb Peters, U.S. Senator from the State of South Dakota.    84
    PCA, America's Cement Manufacturers..........................    90


      THE IMPORTANCE OF MAP-21 REAUTHORIZATION: FEDERAL AND STATE 
                              PERSPECTIVES

                              ----------                              


                      WEDNESDAY, JANUARY 28, 2015

                                       U.S. Senate,
                 Committee on Environment and Public Works,
                                                    Washington, DC.
    The full committee met, pursuant to notice, at 9:30 a.m. in 
room 406, Dirksen Senate Building, Hon. James Inhofe (chairman 
of the full committee) presiding.
    Present: Senators Inhofe, Boxer, Vitter, Barrasso, Capito, 
Crapo, Boozman, Sessions, Wicker, Fischer, Rounds, Carper, 
Cardin, Sanders, Whitehouse, Merkley, Gillibrand, Booker, 
Markey.

            OPENING STATEMENT OF HON. JAMES INHOFE, 
            U.S. SENATOR FROM THE STATE OF OKLAHOMA

    Senator Inhofe. It is great to have all our visitors here 
from Oklahoma. I came in last night and they were having a 
dinner, I thought two or three people. I knew Gary Ridley would 
be there; he is always there. And I looked over and there were 
all familiar faces there.
    So we have this concern, there are a lot of things about 
what is government really supposed to be doing. Quite often, 
and the reason I got on the committees that I did 20 years ago 
was because this is what we are supposed to be doing. Defending 
America and building infrastructure that is it. We all 
understand that in Oklahoma. We know that we have gone through 
a process that most of us, some of us remember, most of us have 
not been around that long. But I do recall when I was over in 
the House, on the T&I committee over there, at that time, 
Secretary Foxx, do you know what was the biggest problem we had 
in the Highway Trust Fund? Too much surplus. That was the 
problem that we had.
    Now, we all know what happened since that time. We all know 
that we can't continue to do as we have done in the past. I do 
have an opening statement which I will submit as a part of the 
record. I think the significance of this meeting, I say to my 
friends on the left and right, is that we want to do it right 
this time. We have done patchwork and we have put together 
things that we think are a good idea, and I have to say this: 
we have had successes.
    I didn't like the way things went back in the 27-month bill 
that we had. I didn't like the idea that a lot of Republicans, 
my good friends, were demagogueing it and not realizing that 
what they were doing, they were thinking they were doing the 
conservative thing, because it was a big bill. But it is not. 
Because the conservative thing is to pass a bill instead of 
having the extensions. Secretary Foxx has been out in Oklahoma 
and we have talked about this at length, the cost of 
extensions. We have never calculated it, but I think it is 
somewhere around 30 percent off the top.
    Well, the good news is that the House, when we went over 
right after this bill and told them, talked to them about this 
thing about our constitutional responsibilities, every one of 
the 33 Republican and the Democrats on the House T&I committee 
voted for it. That is a major breakthrough at that time. I see 
that happening again here.
    So we are going to be doing the right thing now and as we 
know, we decided to do, that we are going to make one change in 
this committee. We are not going to have everyone have an 
opening statement, because we have so many witnesses coming in 
and we spend all of our time listening to each other.
    So with that, I will just yield to Senator Boxer, and then 
we are going to continue this hearing.
    [The prepared statement of Senator Inhofe follows:]

          Statement of Senator James M. Inhofe, U.S. Senator 
                       from the State of Oklahoma

    Welcome to the first hearing of the EPW Committee this 
year. I want to extend an especially warm welcome to our new 
Committee Members--Senator Capito, Senator Rounds, and Senator 
Sullivan--and to our witnesses who took time out of their busy 
schedules to be here today. My top priority this year is to 
pass a fiscally responsible, long-term highway bill.
    Unfortunately, what used to be the best transportation 
system in the world is now rapidly deteriorating. While we 
struggle just to maintain the existing condition of our 
infrastructure, our global competitors are greatly outpacing us 
in their infrastructure investment. I know Secretary Foxx will 
talk more about this.
    As we are all aware, the Federal highway program is 
operating on a short-term extension that expires at the end of 
May.
    My staff is already working with Senator Boxer's staff on a 
long-term bill that will give our partners the certainty they 
need to plan and construct important transportation projects.
    More short-term extensions are not the answer. Our states, 
industries, and economy need long-term authorizations that 
ensure funding and allow for the planning of big, long-term 
projects of regional and national importance. I have often said 
the conservative position is to prevent short term extensions, 
because as history showed us after 9 extensions between 
SAFETEA-LU and MAP-21, we lose 30 percent of the Highway Trust 
Fund's resources when we fail to achieve longer term funding 
bills. I believe we can do better.
    Our infrastructure investments are a partnership between 
the Federal Government and the States. We need to keep up our 
end of the bargain and pass a fully funded, long-term bill. I 
know the Governors that are here today will all discuss how 
critical it is for their states that we maintain a strong 
Federal program.
    Today, we sit at a crossroads. We could take the 
responsible course and pass a long-term reauthorization of MAP-
21, or we could kick the can down the road and find short-term 
patches that continue the uncertainty facing our partners.
    I am committed to doing the right thing, and I thank all of 
our witnesses for helping spread this message and being here 
today.

           OPENING STATEMENT OF HON. BARBARA BOXER, 
           U.S. SENATOR FROM THE STATE OF CALIFORNIA

    Senator Boxer. Mr. Chairman, thank you so much for making 
this your first hearing. Nothing could please us more, because 
know this is an area that there is bipartisan support for. I 
think Senator Vitter and I, it is no big secret, we don't see 
eye to eye on much, but we were able to get a good bill done 
through this committee. And I have to make a point, Mr. 
Chairman, we were the only committee to act last Congress. No 
committee of the Senate or the House but this committee. And 
with your leadership, we are going to be working together here 
to get this done.
    I am going to ask unanimous consent to put my statement in 
to the record and I am going to make four very brief points. 
First, we can do nothing more important for jobs, for 
businesses, for this economy, for this middle class, than 
passing a multi-year highway bill. That is the first point. 
There is nothing better that we could do.
    Second, we have a great record of bipartisanship on that 
issue. So nothing should stop us. And again, I point to last 
year, when we acted, when no other committed acted in the 
Senate or the House. There was bipartisan paralysis, except for 
us in this committee. I am so proud of that. And we need to 
take the leadership again and hopefully this time it will be 
emulated.
    Three, we have to have the courage in the Senate and in the 
House to fund a multi-year bill. We cannot leap over that idea 
to an extension.
    And that leads me to my next point. We are getting 
perilously close to the bankruptcy of the Highway Trust Fund, 
May 31st. Mr. Chairman, I would ask rhetorically, if you go to 
the bank and you want to buy a house, and the banks says, oh, 
great. We will lend you the money, but only for 5 months. You 
are going to walk away. You are not going to buy a house if all 
you know is you have credit --that is what they have done here. 
When I say ``they,'' the vast majority of our colleagues punted 
this.
    And this is awful. This is the greatest Country in the 
world. We will not remain so if our bridges are falling down, 
if our highways are crumbling and so many other ramifications 
of not investing. So we need certainty.
    I do want to say, today I learned from my staff, I don't 
know if your staff has informed you, that the deficit in the 
trust fund is less than we thought it would be. We were 
anticipating $18 billion a year over 6 years; it is $13 billion 
a year over 6 years. Now it is a lot less than we thought it 
would be. It is $13 billion a year.
    Now, if we can't find that, I think it is a $1.2 trillion 
budget, on discretionary spending, if we can't find that to 
build the infrastructure, we have failed as a Congress. So with 
your leadership and with all your strong support from Oklahoma, 
I think we are going to get things done here. I look forward to 
it.
    [The prepared statement of Senator Boxer follows:]

             Statement of Hon. Barbara Boxer, U.S. Senator 
                      from the State of California

    I am pleased that the EPW Committee's first hearing in the 
114th Congress is focused on the importance of Federal funding 
for our nation's transportation infrastructure, because we are 
facing a critical deadline in four short months.
    Transportation bills have a long history of bipartisanship 
in Congress and I am hopeful that we will continue working 
together across the aisle in the coming months. In November 
2011, this Committee reported MAP-21 out by a unanimous vote of 
18-0. MAP-21 passed the Senate in March 2012 by a vote of 74-
22, and the conference report was enacted in June 2012 by a 
vote of 74-19 in the Senate. In May 2014, this Committee 
approved the 6-year MAP-21 Reauthorization Act by another 
unanimous vote. This shows the strong bipartisan support for 
enacting transportation bills and why I believe we can do so 
again.
    A robust, multi-year surface transportation bill will 
support millions of jobs for American workers and help the 
construction industry, which was hit hard by the Great 
Recession. There are approximately 1.6 million fewer 
construction workers today compared to 2006--which equals 
roughly 20 percent of all construction jobs--and over 600,000 
construction workers remain out of work in the U.S.
    As you know, the law that currently authorizes our surface 
transportation programs is set to expire on May 31st--right as 
the critical summer construction season is beginning.
    The Highway Trust Fund is projected to face cash-flow 
problems around the same time. That means that billions of 
dollars in transportation funding to the states will be delayed 
or stopped.
    There is a growing chorus from states in recent months that 
the Highway Trust Fund is in serious trouble and much-needed 
transportation projects are in peril. Arkansas and Tennessee 
have already delayed or canceled construction projects due to 
the uncertainty in Federal transportation funding, and other 
states are considering similar action as the construction 
season fast approaches. When we approached a transportation 
funding shutdown last summer, numerous states took preemptive 
action to cancel transportation projects due to the uncertainty 
whether Federal funding would continue.
    The projected shortfall in the Highway Trust Fund creates 
funding uncertainty, and that is bad for businesses, bad for 
workers, and bad for the economy. We already know that an 
insolvent Highway Trust Fund will have a domino effect that 
will be felt throughout the economy.
    Addressing the Highway Trust Fund shortfall and passing a 
long-term transportation bill before the May deadline will have 
a real economic impact across the country. It will provide 
funding stability for State and local governments and 
businesses that rely on Federal transportation funding, and it 
will create or save millions of jobs.
    A modern transportation system is the foundation for a 
strong U.S. economy. Maintaining and improving our roads, 
bridges, and transit systems is necessary to ensure our global 
competitiveness. Nationwide there are 63,500 bridges that are 
structurally deficient and 50 percent of our nation's roads are 
in less than good condition.
    Transportation is and should be a nonpartisan issue. Taking 
action to save the Highway Trust Fund and invest in our aging 
infrastructure is strongly supported by businesses, labor, and 
transportation organizations.
    The 6-year reauthorization of MAP-21 that this Committee 
unanimously approved last May built off of the substantial 
reforms included in MAP-21 and provided long-term funding 
certainty for highway and bridge programs. I am hopeful we will 
have similar success in our Committee this year.
    I am also hopeful that the Senate Banking and Commerce 
Committees will move quickly on their portions of the surface 
transportation bill, and the House must act as well as soon as 
possible.
    We also need to identify a bipartisan, dependable source of 
funding for the HTF. Finding that sweet spot will require us to 
consider a broad range of options in order to find a long-term 
solution to our transportation funding crisis. I am currently 
working across the aisle on a proposal to provide stable 
funding for the HTF through repatriation, which would not only 
save the HTF, but would stimulate the economy by bringing back 
hundreds of billions of dollars in offshore earnings.
    We have two excellent witness panels today and I am so 
pleased to welcome Secretary Foxx back to our Committee. I am 
also looking forward to hearing from our second panel with 
Governors representing diverse regions of this nation who will 
discuss how important Federal transportation funding is to 
their states.
    Congress cannot shirk our responsibility to get our work 
done this year. States, businesses, and workers need the 
certainty from a long-term transportation bill. We must act now 
because failure is not an option.

    Senator Inhofe. Thank you, Senator Boxer.
    It is my honor to introduce and present, not really 
introduce, Secretary Foxx. He has been really a great Secretary 
of Transportation. It has been a very difficult job. We have 
had a chance to break ground on a lot of great things out there 
in my State of Oklahoma. So I am so thankful that you are doing 
what you are doing and you are going to be in on the big kill 
and we are going to do it together.
    Secretary Foxx.

   STATEMENT OF HON. ANTHONY FOXX, SECRETARY, UNITED STATES 
                  DEPARTMENT OF TRANSPORTATION

    Mr. Foxx. Thank you very much, Mr. Chairman, for your kind 
words and for your leadership as well as the leadership of 
Ranking Member Senator Barbara Boxer. The work you all have 
done and will continue to do on this issue is vitally 
important. I want to tell you that we appreciate your service.
    I also want to thank the entire committee here. We are in a 
new year with a new Congress. But I am here to discuss an old 
issue: the need for a new Transportation Bill. As has been 
said, a multi-year transportation bill with funding growth and 
policy reforms, focused on America's future.
    America is in a race, not just against our global 
competitors, but against the high standards of innovation and 
progress our Nation has shown for generations. We are behind in 
that race. And when you are behind, you must run faster and do 
more than just keep pace.
    The transportation system itself does not care about the 
political challenges of addressing its needs. From its 
perspective and from mine, we are either meeting those needs or 
we aren't. In the past year, I have been to 41 States and over 
100 cities. Mr. Chairman, you were kind enough to invite me to 
Oklahoma, where we saw a stretch of I-44 just south of Tulsa 
that needs to be widened. But the funds just aren't there.
    There are thousands of miles of highway projects in 
Oklahoma that the DOT has said are critical. But they are 
either not being built or they are not being repaired.
    Unfortunately, Oklahoma is not alone. I have also visited 
the Brent Spence Bridge that connects Kentucky and Ohio. It is 
well over 50 years old and is carrying more than twice the 
traffic it was designed for. Chunks of concrete are now falling 
from the bridge's ramps on cars parked below. It must be 
replaced. But there is no real plan right now on how to pay for 
it.
    Or you could look at Tennessee. The State DOT here has 
actually postponed $400 million in projects and the thousands 
of jobs that come with them because of ``funding uncertainty'' 
here in Washington. Now, Tennessee is not the only State to 
slow or stop projects. But it may be the first State to tell 
the unvarnished truth about what is happening to our 
transportation system, about how gridlock in Washington is now 
creating gridlock on Main Street.
    Last year we sent you a comprehensive, multi-year proposal, 
the Grow America Act, which included 350 pages of precise 
policy prescriptions and substantial funding growth, all 
focused on the future. What America received in response was a 
10-month extension with flat funding, which, while averting a 
catastrophe, falls short of meeting the Country's needs.
    It was not the first short-term measure or patch that has 
been passed. It was, by my count, the 32d in the last 6 years. 
As a former mayor, I can tell you that these short-term 
measures are doing to communities across America what the State 
DOT says they are doing in Tennessee, literally killing their 
will to build.
    At this point, we must concern ourselves not only with the 
immediate situation that confronts us in May, but also with the 
cumulative effects of these short-term measures and the policy 
uncertainty. I urge you to make a hard look at it now, from the 
rear-view mirror to the front windshield. Look at our aging 
system. Look at the opportunity we have to grow jobs and the 
economy. Look at our own children and grandchildren. In order 
for the system to be as good as the American people, we must do 
something dramatic. To hell with the politics.
    That is why we sent you the Grow America Act last year, and 
why we will send you a new and improved Grow America Act this 
year. We certainly know that the Grow America Act is not the 
only approach to solving the infrastructure and mobility 
challenges of the future. We look forward to full engaging with 
this committee and others on both sides of the aisle to chart 
this path together.
    But we believe there are some essential principles that any 
bill must have. First, we are going to need a substantially 
greater investment. We are also going to need a greater level 
of investment over time, not just 6 months or even 2 years.
    If we want communities to build big projects that can take, 
in some cases 5 years or more, we need to ensure funding for 
roughly that same amount of time. I think Senator Boxer's 
analogy of trying to buy a house with a 5-month loan is a great 
analogy.
    There are important policy changes that need to be dealt 
with, like streamlining the permitting process, so projects go 
from blueprint to steel in the ground as fast as possible. We 
believe we can do that while ensuring better outcomes for the 
environment. We also believe in opening the door to more 
private investment and in giving communities and MPOs and 
freight operators a louder voice in what gets built.
    We believe in strengthening our Buy America program to make 
sure the American taxpayer dollars are being invested in 
American projects built by American hands with American 
products. And we believe we must do everything possible to keep 
Americans safe as they travel in 2015 and beyond. That includes 
obtaining the resources and the authority we need to combat 
threats we might not expect in this new century.
    In the end, both I and my entire department have great 
respect for what this committee has done and the challenge 
ahead of it, including, as we look back, getting MAP-21 passed, 
a huge achievement. Now it is time to build on that work.
    When I was sworn in, I took the same oath that you did, to 
protect and defend. For me, that means protecting and defending 
Americans' fundamental ability to move, to get to work, to get 
to school, to get goods from the factory to the shelf. But I 
can't do that, they can't do that, and we can't do that unless 
we take bold action now.
    So I am here to work with you and I am also looking forward 
to your questions. Thank you very much.
    [The prepared statement of Mr. Foxx follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    Senator Inhofe. Thank you, Mr. Secretary. I have often 
thought in that particular job, in your job, there is no better 
background than to have been a mayor of a large city. You and I 
have talked about that in the past.
    When you see the things that you know work, you wonder 
sometimes how can we build on these and do even a better job. I 
know the press, when we walk out of here, the only thing they 
are going to want to talk about is, how do you pay for it. We 
don't know yet. We are going to have all of the above and try 
to work on it.
    But there are some areas that are sometimes controversial. 
I have to appreciate both sides working together on some of 
these enhancements. You mentioned the enhancements and some of 
the streamlining. We have done a lot of good things already. 
What more is out there that is obvious to you that would make 
it go faster, get more done for less money and get off the 
ground quicker?
    Mr. Foxx. Thank you, Mr. Chairman, it is a very important 
question. We do have experience in the recent past building on 
some of the work of MAP-21, of doing concurrent reviews in our 
permitting process, which effectively allows all of the Federal 
agencies to sit at the table at the same time at an earlier 
point in the design and construction of a project, to comment 
on that project at a point at which the project can still be 
changed to respond to the permitting.
    I will give you an example. There is a project in New York 
called the Tappan Zee Bridge, it is a $5 billion project. We 
applied concurrent reviews to that project and we were able to 
reduce the permitting time from what could have been three to 5 
years to 18 months, as a result of doing that concurrent 
process.
    Senator Inhofe. That was really a direct result of the 
changes that we made in coming to this point.
    Mr. Foxx. It was building on a lot of the work that MAP-21 
contained, and there was also some administrative work that 
went into putting that on our dashboard and ensuring the 
agencies worked together. We think there are additional tools 
that could be provided to enable that to happen more.
    The good news there is that when you do concurrent reviews, 
you are not sacrificing the environment. You are actually 
putting the environment in an earlier stage and you are 
actually getting better results there too.
    Senator Inhofe. That is right.
    Senator Boxer.
    Senator Boxer. Thanks, Mr. Chairman.
    Mr. Secretary, I am going to just press you on what is 
actually happening on the ground right now. We have failed as 
government to give any certainty to this process.
    We know that Tennessee and Arkansas have already delayed 
hundreds of millions of dollars in highway projects for this 
year. Last summer, over two dozen States had taken similar 
preemptive action as the Highway Trust Fund neared insolvency. 
This whole game of waiting and then somebody steps up in the 
House or Senate and says, oh, I am going to save this for 5 
months, this is a disaster. Can you discuss the likelihood that 
we are going to see these cutbacks continue if we don't take 
action soon to shore up the trust fund?
    Mr. Foxx. Thank you for the question. This is a crisis that 
is actually worse than I think most people realize. Your point 
is very well taken.
    We have until May 31st, 2015, the point at which the 
funding of the 10-month extension runs out. But the State 
departments of transportation are having to figure out what 
their plan of work is going to be during the height of 
construction season, which starts right about the same time 
that the extension runs out.
    So I predict that over the course of the next few months, 
you are going to see more State departments of transportation 
start to slow or stop projects because they don't know what is 
on the other side of May 31st. So from a timing perspective, I 
think we have a problem sooner than May 31st in terms of the 
situation on the ground. I think what you are going to see is 
States pulling back even before May.
    Senator Boxer. That is basically my question. I am not 
going to take any more time.
    One point I am going to make over and over again to anyone 
who will listen. Some will and some won't. This is our duty, 
this is our job, this is the best thing we can do for the 
Country. This is the most bipartisan thing we can do. And this 
committee, I am urging, and I know the chairman feels as I do, 
that we need to step out here. I would say to colleagues here, 
we have a really great role to play by stepping out again and 
doing the right thing. We have the blueprint, Senator Vitter 
and I put it together with all your help. That may not be the 
exact blueprint we go with. But it is a definite start.
    So thank you for, in your very calm and collected manner, 
for letting us know that lack of action is already happening, 
having a result and impact on the ground. And the impact is 
bad. It is bad for businesses, it is bad for jobs, it is bad 
for communities, for our local people. That is the point I 
think I wanted to make and you made it very eloquently.
    Thank you, Mr. Chairman.
    Senator Inhofe. Thank you, Senator Boxer.
    Senator Vitter.
    Senator Vitter. Thank you, Mr. Chairman. I want to echo the 
comments that have been made about the bipartisan work of this 
committee on infrastructure. Last Congress, this committee, on 
a completely bipartisan basis, produced a really good water 
resources bill, water infrastructure bill that was very 
important for our ports and waterways and that infrastructure, 
maritime commerce. And as Senator Boxer mentioned, we put 
together a very good highway bill in this committee.
    Now, we have the easy part, quite frankly, so I don't want 
to overState it. We put together the transportation part of the 
highway bill, a good bill, very bipartisan basis. But the 
Finance Committee has the hard part, which is the financing 
part. I want to cut right to that, so let's cut right to the 
chase. I agree with you, we need to get this done. We need to 
get it done on a medium to long-term basis, not another band-
aid approach.
    My suggestion for all of us who truly want to do that is to 
cut right to the chase and to really dive in to those 
discussions about how we finance it in a realistic way. Folks 
on the left, including the Administration, may have ideas that 
are perfectly valid ideas that just objectively are going 
nowhere in this Congress. Folks on the right in this Congress 
may have ideas that are perfect valid ideas that are going 
nowhere with this Administration. My suggestion is we blow past 
that, don't waste time, and cut to the chase of where we may 
find a common solution.
    I believe realistically there are three realistic 
categories to focus on. One is, the traditional gas tax, a 
traditional means of financing the Highway Trust Fund. I 
believe that is only realistic, only a possibility, in my 
opinion, this is just my political judgment, I can't prove 
this, but I think it is only a possibility if we give all 
middle class and lower middle class taxpayers a tax offset, 
something off their income tax or withholding, something, so 
they are held harmless, so they do not pay a higher Federal 
overall tax bill.
    Second big category, I believe, is tax reform, maybe 
focusing on business tax reform and using elements of that, 
namely repatriation, to have a significant amount of money for 
the Federal highway program. That is not a truly permanent 
solution, but those are big dollars that could fund a 
significant bill of a significant duration.
    And then the third big category is some domestic energy 
production with the additional royalty and revenue dedicated to 
the Highway Trust Fund. I would like to see that to a much 
greater extent than I am sure is realistic, given the 
sensibilities of folks on the other side of the aisle and the 
Administration. So in the spirit that I began with, I am not 
suggesting David Vitter's lease plan for the OCS, which is a 
great one, by the way, but I am suggesting some expanded 
production which is good for American energy independence, good 
for our economy and would produce significant new revenue at 
least when the price of oil gets to a better place, a more 
stable place that could be dedicated to the Highway Trust Fund.
    So my question is, what is the Administration doing to cut 
to the chase, as I said, and explore those three categories?
    Mr. Foxx. Thank you for the question. Let me answer your 
question directly and also make a point. The Administration has 
put forward a proposal to use pro-growth business tax reform to 
pay for our infrastructure. What we would basically do is put, 
in addition to what the gas tax is currently spinning off, of 
course it is less than what the Highway Trust Fund needs to be 
level, but we put another amount of a like amount into our 
infrastructure to not only replenish the Highway Trust Fund but 
to do more than that.
    Which leads me to the point I want to make, which is that I 
think there needs to be a conversation about what this is. What 
number are we trying to get to and what is it going to get us. 
If you think about me and our department as contractors, we can 
try to go out and build what Congress urges us to do. But I 
want to make it very clear that we can't go out and build a 
great big mansion if we have the resources to build a hut. I 
think that our system right now really needs a substantial 
injection of a long-term bill, but also substantial growth to 
counteract the cumulative effect of the short-term measures in 
the recent past.
    Senator Vitter. And Mr. Secretary, just one followup, real 
quickly, on that specific point. Is there a version of that 
proposal you are talking about that doesn't have the big tax 
increase on successful folks as part of it? Because going back 
to the spirit of my comments, I am suggesting that we get real 
and we cut to the chase so we actually solve this in a 
meaningful way by May. So if we are just talking about that 
version, in all due respect, I don't think that's sort of 
meeting my test.
    Mr. Foxx. Well, the Green Book last year published three 
specific ideas about pro-growth business tax reform that I 
think potentially would meet your test. One was eliminating 
LIFO, another one was eliminating accelerated depreciation. And 
a third one was pulling some of the untaxed corporate earnings 
overseas and bringing those back home. And those there ideas, 
very specific ideas, are ones that seem to be within the 
parameters that you have mentioned.
    Let me also extend to you, Senator, and to the committee, 
and to the entire Senate and House, the full measure of my 
attention to help you get to yes on a solution here. Because I 
think it is vital for the Country.
    Senator Vitter. Thank you.
    Senator Inhofe. Thank you, Senator Vitter.
    Senator Carpe.
    Senator Carper. I am happy go after Senator Cardin.
    Senator Inhofe. All right, Senator Cardin.
    Senator Cardin. Thank you, Mr. Chairman. I appreciate that.
    Secretary Foxx, thank you for your work. I strongly support 
a robust reauthorization, long-term, of our transportation 
needs. It needs to be long-term. As has been pointed out, our 
States and counties cannot plan without the long-term 
commitments from the Federal Government as their partner. It 
needs to be robust because it is not only the new roads and 
bridges and transit systems that we need, but it is also 
maintaining the infrastructure we have. So we have to focus on 
this.
    I do want to maintain, and I think this is the important 
part, the flexibility. I represent Maryland. The Baltimore-
Washington area is the most congested area in the Nation. We 
need to invest in transit and we have a game plan to do that. 
We want to stay on that game plan.
    But a large part of it depends upon the ability of a 
sustained Federal partner and that requires a long-term 
reauthorization of a robust bill.
    I also want to emphasize the need for giving our local 
governments flexibility. I have worked with Senator Cochran on 
the Transportation Alternatives Program that allows locals to 
make decisions, our mayors, our county people to make decisions 
as to what is in their best interest, so we have livable 
communities where you can walk and bike and keep cars off the 
roads when they are not necessary.
    And then you emphasized safety. I want to emphasize that 
point also. We had a tragic bike accident in Baltimore just 
recently. It is critically important that our local governments 
have the ability to keep their people safe. Of course, we just 
recently had another tragedy on the Metro system here in 
Washington, and we have been working with your staff to make 
sure that we find out as soon as possible how we can make the 
Metro system safe. In other words, we don't want to wait a year 
for the full review before we implement changes to make sure 
that the passengers are as safe as possible.
    So I just really wanted to underscore the points that you 
have made, that we do want to work with you in partnership. 
This is a bipartisan committee. We want to have the resources 
to modernize our transportation systems. I have the honor of 
living in Baltimore and commuting to Washington every day. I 
never know whether it is going to take me 1 hour or 3 hours to 
get in.
    So it is a challenge for people in our region, people in 
our Country. I urge you to be bold. I think this committee is 
prepared to be bold. It just seems to me with the price of 
energy today we should be able to get the resources we need in 
order to do what our constituents want us to do, have a modern 
transportation system, be able to maintain that, and create the 
economic engine that will create jobs for the people of our 
communities. That is our goal, that is what we are trying to 
do.
    I just want you to know we appreciate your commitment to 
this. You have a lot of partners on this committee.
    Thank you, Mr. Chairman.
    Senator Inhofe. Thank you.
    Senator Fischer.
    Senator Fischer. Thank you very much.
    Thank you, Mr. Secretary, for being here today. I 
appreciate it.
    In your testimony you State ``Too often projects undergo 
unnecessarily lengthy reviews, and we need to be able to make 
the types of reforms that will expedite high priority projects 
and identify best practices to guide future efforts.'' I 
couldn't agree with you more.
    As you know, in Nebraska, our department of roads, our 
cities, our counties, they have been very frustrated with the 
Federal Highway Administration's what I would call 
unpredictable approach to the environmental review process. You 
know that we have been trying to work on that. I don't believe 
that it comports with the performance based, data-driven 
approach of MAP-21. I think those reviews need to be 
performance-oriented, not solely process-based and certainly 
not inflexible.
    I appreciated your earlier comment about a concurrent 
review process, where you can cut it down from three to 5 years 
to 18 months. That would be great. That would be great if we 
can do that. I hope that the Federal Highway Administration is 
going to continue to work with Nebraska so we can get there. As 
you know, limited resources become even more stretched and 
stressed when we have a process that I believe is not working 
the way it is supposed to.
    What do you think we can do to be sure that State of good 
repair projects within existing rights of ways are exempt from 
what I would call a counterproductive consultation with 
regulatory agencies? And what is the value added to 
environmental protection by conducting even a CE level review 
on a resurfacing project or another project in an existing 
right of way where a transportation facility already exists? Do 
we have to study and document things over and over and over 
again and just pile up paper?
    Mr. Foxx. Thank you for the question, Senator. I know that 
specifically with respect to Nebraska, the Federal Highway 
Administration has been working very closely with the Nebraska 
Department of Roads, making a lot of progress on making greater 
use of categorical exclusions to expedite projects. I think you 
are going to see some good news occurring there over the next 
several months.
    But more generally, the work of MAP-21 did some very 
important things to give the Department tools to make greater 
use of categorical exclusions. In addition to that, we have 
begun to take a look at the State review processes. If they are 
redundant and essentially at the same standard the Federal 
review would be, we have begun allowing some States to 
substitute their State review processes for the Federal review 
processes. Texas has just gone through that process. So we are 
working to expedite where we can.
    I want to emphasize that I think that through our new bill, 
Congress could give us additional tools to enable us to 
operationalize concurrent reviews. Again, I think we get 
perhaps even better environmental outcomes by doing it that 
way, because the environmental considerations get brought up 
early and dealt with early.
    Senator Fischer. I would be very happy to work with you on 
those, with my office, especially so we can stop the redundancy 
that I believe is happening.
    If we can move on to TIGER grants. Do you think they are 
being distributed in an equal manner? I know that when we look 
at rural America, open country, small towns, it seems that we 
are not getting really TIGER funds in those areas. Can you tell 
me why that would be?
    Mr. Foxx. A couple of points. The TIGER program requires a 
minimum of 20 percent of each round to be distributed into 
rural America.
    Senator Fischer. And the definition of rural America at 
that point is?
    Mr. Foxx. I would have to have my staff confirm this, but I 
believe it is a community of 50,000 or fewer people.
    Senator Fischer. I am talking about very sparsely populated 
areas, where in many cases there is one person per square mile. 
But yet in a State like Nebraska, we have miles and miles of 
roads that are necessary for commerce, for safety. And I would 
think we could look at maybe a new definition of rural America.
    Mr. Foxx. You know, we are following the statutory 
definition, but if there is a new definition, we will follow 
what this Congress tells us. What I would also say are a couple 
of other points. We in the last round exceeded that 20 percent 
minimum. We think of it as a floor but not a ceiling. We are 
looking constantly to make sure that we see good 
transformational projects across the Country wherever they 
happen to come from.
    Second, we have done more outreach to extend technical 
assistance to rural communities, because in some cases, it is 
communities that have fewer tools, aren't able to hire fancy 
consultants to help prepare their applications, that sometimes 
don't get through. So we want to make sure we are being as 
equitable as possible from that standpoint.
    So we will continue to work with you and others. I also 
want to applaud Nebraska for Omaha's TIGER grant this last 
round, for a bus rapid transit system, the very first in the 
State of Nebraska.
    Senator Fischer. Yes, it was great.
    Thank you very much, Mr. Secretary. I appreciate your work.
    Senator Inhofe. Thank you, Senator.
    Senator Booker.
    Senator Booker. Thank you, Mr. Chairman.
    First and foremost, I want to echo some of what has already 
been said. You are an extraordinary public servant, one of the 
best Cabinet members the President has. I say that with no 
particular bias, I am also your friend for many years and a 
fellow former mayor.
    [Laughter.]
    Senator Booker. I just want to thank you also for your 
numerous trips to the State of New Jersey and for your 
partnership on a number of very specific, important projects. 
As you know, New Jersey is the most densely populated State in 
America. It is home to the most valuable freight corridor in 
this Country, it is home to the busiest airspace in this 
Country. It has the third busiest seaport in the United States. 
We have 39,000 miles of public road, 6,500 bridges and nearly 
1,000 miles of freight rail. In many ways, when it comes to the 
economic prosperity of our State, New Jersey is the 
transportation hub that really drives our economy.
    I don't want to reState anything that has been said already 
in terms of the importance of moving a long-term funding 
mechanism forward. But I do want to just for the record ask you 
some questions which are obvious but important to the State.
    First and foremost, delays in adequately funding our 
infrastructure actually cost the taxpayer more money. In other 
words, it will drive the expense of this transportation deficit 
even higher. So in other words, all the fiscal conservatives, 
and I include myself, having been a mayor, and you as well, 
having to be fiscally conservative, that we are delayed by our 
lack of funding, our short-term actions actually are driving 
more costs to taxpayers over the long run. Is that correct?
    Mr. Foxx. Yes. Absolutely. We have estimates, American 
Society of Civil Engineers estimates on a State by State basis 
the cost of poor infrastructure on our roadways. In most cases, 
the amount people are actually paying into the Highway Trust 
Fund, for instance, is less than the costs they are 
experiencing as a result of poor road conditions, whether it be 
having to buy new tires or get a new axle fixed, or the cost of 
gasoline or whatever. Folks are paying more than they are 
getting.
    Senator Booker. So it is the height of your responsibility, 
from just a dollars and cents balance sheet analysis, for us to 
do nothing, or short-term fixes, not just for the public 
treasury, but as you said already, motorists in my State on 
some estimates are spending over $2,000 a year because of poor 
road conditions.
    So our inaction makes people pay twice: once with our 
taxpayer dollars and then also with their own dollars out of 
their pockets, in addition, their own dollars for direct 
payments because of repairs to their cars, congestion, lost 
productivity because you are sitting in traffic. Actually, 
Congress is making people pay twice.
    Mr. Foxx. Yes. And money is one thing, but time is 
something none of us can create more of. When folk are spending 
40 hours on average more a year in traffic, that is time they 
don't get back. That is a soccer game or a work hour or 
whatever. I think that we as a Country, we have stopped 
thinking about our transportation system as something that gets 
us there fast.
    Senator Booker. Right. So I know the importance of finding 
the mechanism is really important, but it is almost like saying 
we either pay now or we pay much more later.
    Mr. Foxx. Yes.
    Senator Booker. So the last thing I want to ask you to 
comment on, one of my colleagues did something that many people 
might think is radical. Senator Sanders has called for a 
trillion dollar investment, far more than the Administration is 
asking for. Can you just give your opinion on that? Knowing 
that our deficit for transportation investments is far more 
than a trillion dollars, how do you view Senator Sanders' call 
for the trillion dollar investment?
    Mr. Foxx. It is a bold step. It is a bold step and a 
statement about where we are as a Country. We need to invest 
more. I think everyone strains to figure out how to pay for it.
    But to your further point, what happens if we don't? We are 
going to pay probably more anyway on an individual basis. We 
are going to lose opportunities to bring jobs to this Country. 
For every billion dollars we invest, we estimate 13,000 jobs 
come as a result of it.
    And in the transportation sector writ large, only about 12 
percent of folk who work in transportation have college 
degrees. So you look at that versus the long-term unemployed, 
this is also a jobs issue. So we are not capturing 
opportunities as a Country, because we are not investing as we 
should.
    So I think it is very, very important, and I applaud 
Senator Sanders for taking a bold step and actually talking 
about the needs we actually have.
    Senator Booker. Thank you, Mr. Secretary. Thank you, Mr. 
Chairman.
    Senator Inhofe. Thank you, Senator Booker.
    Senator Capito, it is my honor to introduce Senator Capito 
for the first time in this committee. She will make great 
contributions here.
    Senator Capito. Thank you, Mr. Chairman. Thank you, 
Secretary, for being here with us today.
    I was able to meet you first when I was over on the 
Transportation Committee on the House side. And I was also on 
the Conference Committee with the Ranking Member when we did a 
lot of the streamlining of the environmental permitting for 
projects. I am glad to know it is moving along. I understand 
there are things still to be done. So I appreciate that effort.
    Also I would tell my colleague, Senator Fischer, that in 
West Virginia, the rural community of Ranson was a recipient of 
two TIGER grants for economic development. We are very 
appreciative of that, they have been very innovative with that. 
I think it is going to really grow that local and regional 
economy. So I am very appreciative of the set-aside for rural 
America. Because we were the beneficiary of that.
    The big question is, how do we afford all this? We know 
that is the elephant in the room and what we are all trying to 
struggle with. I would ask you, in the TIFIA and the public-
private partnership arena, are you finding across the Country 
that States and local communities and business entities are 
really stepping up for this public-private partnership? We see 
some of this in West Virginia. I am wondering how that is going 
nationally and what your perspective is on that. I notice in 
your written comments you talk about expanding the TIFIA 
opportunities.
    Mr. Foxx. Thank you very much. We do see a lot of promise 
in public-private partnerships. There are some really clear 
examples just in the last few months of ones that we have been 
able to move forward. One of which that comes to mind is in 
Pennsylvania, where there were 500 some odd bridges that the 
State of Pennsylvania needed to update. Many of them were 
deficient. And not one of those bridges by itself would 
necessarily have attracted private capital.
    But they pooled those bridge projects together, and we were 
able to issue, I think it was $1.2 billion in private activity 
bonds to support getting all of those bridges done. So we are 
looking at creative ways to move forward.
    Having said that, I think we have some problems that I want 
to be very clear about. No. 1, this issue of the cumulative 
effect of short-term measures has hurt us as a Country because 
it has hurt our planning process. States and local governments 
that haven't had the luxury of counting on Federal support over 
a long-term period have pulled back on their planning. So the 
big projects that are most likely to attract large scale 
private capital in many cases aren't actually being planned, 
they are not going through the review process, they are not 
teed up, if you will, to rapidly move into a public-private 
partnership.
    The second challenge we have it that the programs that we 
have with within USDOT are relatively stove-piped. TIFIA works 
through some agencies within DOT but not all. RRIF works 
through the Federal Rail Administration. PABs works through our 
Office of Policy. But we think one of the things that 
additional policy could do is help us pool those resources 
together so we could have a dedicated team to really focus on 
public-private partnerships.
    Senator Capito. Thank you for that. I share your 
frustration. Certainly in West Virginia we had State 
transportation day, because the legislature has come in. There 
is a lot of frustration at the local level and the State 
government level about the inability here for us to do a long-
term highway bill. I am certainly committed to that.
    I think what happens and where the frustration for a State 
like ours falls is because the money comes in smaller chunks, 
you end up really just doing maintenance. You don't do anything 
innovative, you don't do anything that really is telling your 
population that we are moving to the next century.
    So we see that in our home State, and I think that is very 
frustrating to local citizens, businesses and people who are 
trying to grow the economy at the same time. So I share that 
frustration.
    So I would join with you to try to make this work and to 
find the magic formula that we can give the confidence to the 
States and local folks that we really can get this done. I 
think there is a great impetus for this and I look forward to 
working with you. Thank you.
    Senator Inhofe. Thank you, Senator Capito.
    Senator Markey.
    Senator Markey. Thank you, Mr. Chairman, and 
congratulations to you on this first and most important hearing 
that we will be discussing. I know that you and Ranking Member 
Boxer are working very closely together to advance this 
legislation. I think if we do it correctly we can have a great 
success this year, and I thank you for your work on it.
    Mr. Secretary, if I may, I would like to talk first of all, 
transit-oriented development. You came up to the Ruggles 
Station in Boston, and we are having great success there with 
the help of the Federal Government to encourage development in 
an area that historically has been underserved, but which has 
potential to be explosive in terms of growth and the use of 
public transportation.
    Could you talk a little bit about that and the role that 
Congress can play in partnership with the Department of 
Transportation to continue to advance it? What role do you see 
that in terms of it being built into the legislation that we 
are considering?
    Mr. Foxx. Thank you very much, and it is a very exciting 
project in Boston. What is happening in Boston and across many 
of the metro areas around the Country is population is starting 
to concentrate there. If you go to some cities, I was with 
Mayor Garcetti in Los Angeles, actually, and he mentioned to me 
that they literally don't have more highways that they can 
build. They need to integrate transit choices into what they 
do.
    When you build a station like Ruggles, what that does is it 
captures the imagination of real eState developers and they 
start to build dense developments and bring amenities into 
communities that may traditionally not have them. I think the 
challenge for us is that right now, if we look at the amount of 
money we are putting into transit, I think the demand for it is 
going to increase substantially over the next several years 
because of sheer population movements. That is one of the 
reasons why I would urge a more robust investment in transit, 
first of all. Second, I would urge that we do more to partner 
with local communities, whether it is MPOs or mayors or even 
Governors in some cases, to help them develop the tools to 
utilize the land use opportunities that come about as a result.
    Senator Markey. Boston had 800,000 people who lived there 
in 1950. It drifted all the way down to about 600,000. But now, 
with increasing transit-oriented development, Boston has gone 
back up to 640,000 and the arrow is straight up in terms of the 
number of people who now want to move back, use public 
transportation, live closer to all of the amenities of the city 
but also the jobs that are being created around these transit 
projects. Which then has reduced, as you know, the number of 
vehicle miles driven by automobiles all across the Country over 
the last five to 6 years. It is just going down and down and 
down because people want to live and work closer to their mode 
of transportation. And increasingly it is public 
transportation. So thank you for all of your work on that.
    Could I talk with you a little bit about the Complete 
Streets program as well? I also find that to be very exciting, 
where pedestrians, bikers, children, seniors, everyone is 
included in kind of a project approach that ensures that all of 
these facilities can be used by everyone. Can you talk a little 
bit about that, and again, the role that the Congress can play 
in authorization and partnership with the Department of 
Transportation?
    Mr. Foxx. Through our Transportation Alternatives Program, 
we have been able to be a bit of a catalyst in helping 
communities develop best practices around the greater use of 
Complete Streets. What that really means is creating ways in 
which all users on a roadway can safely use those facilities. 
So you will have a lane for vehicular traffic, you will have 
places for pedestrians that are safe and bicyclists as well. 
And we have found that it not only helps with safety, but 
people actually use the entire roadway in different ways. It is 
healthier, it is cleaner in some cases.
    I think that continuing to support the Transportation 
Alternatives Program and helping us build additional tools to 
support States as they measure safety of the bicyclists and 
pedestrians and really bringing bicycling and walking up to a 
standard that we expect of every other mode of transportation.
    Senator Markey. Right now we are seeing that upwards of 
three-quarters of pedestrians who are killed are killed in 
urban areas. So the more that we can work together to create 
strategies that reduce those numbers and make the streets safe 
for everyone I think the better off we are going to be. I am 
looking forward to working with you. I think it is a very 
exciting area and by the way, I think you are just doing a 
fantastic job. I think you understand cities, having been a 
mayor. I appreciate all the work that you do.
    Mr. Foxx. Thank you, Senator.
    Senator Inhofe. That is great. Thank you.
    We will recognize now Senator Rounds for his first 
introduction on this committee. We are delighted to have him 
serving on the committee.
    Senator Rounds. Thank you, Mr. Chairman.
    Mr. Secretary, thanks for the opportunity to visit with you 
just a little bit today. Coming from South Dakota, our home 
State, we are between 800,000 and 900,000, except during the 
time of the Sturgis Rally, then we bump up considerably. It 
seems as a former mayor of Boston, the discussion there in 
terms of, you have had the opportunity to work on 
transportation projects from a different point of view, a large 
metropolitan area, yet one in which you are dealing with the 
Federal guidelines and rules that are required in order to 
qualify for Federal funding.
    In South Dakota, we have similar challenges but on an 
agricultural basis and a rural area basis. I am just curious as 
to your thoughts with regard to the projects that, as you 
indicated earlier in your statements, need to be modernized. We 
have to be more efficient if we are going to expect taxpayers 
to put more dollars in at some point in the future. How do you 
move forward, from the Federal side now, when you are working 
with communities, large and small, States large and small, 
differing expectations in terms of the quality and yet at the 
same time the need for modernization of different projects? 
What do we do to convince and gain the confidence of the 
individual taxpayers who look at a Federal operation here that 
under traditional operations, takes a huge amount of time just 
to get a project ready to go, approved and then actually built? 
What do we do to convince them that we have modern ways and 
more efficient ways to actually deliver those projects on a 
timely basis?
    Do you have some ideas? Would you share your thoughts in 
terms of what we can do to actually deliver, a simpler way of 
saying it, more bang for the buck when it comes to the dollars 
that we are going to be expected to invest in order to maintain 
the infrastructure?
    Mr. Foxx. Sure. We have had some conversation already about 
project delivery and things that could be done to improve it. 
There is another idea that I haven't mentioned that I think is 
worthy. Essentially, I think we can greatly accelerate the 
delivery of projects, speeding them up, in other words, by 
having more concurrent reviews occurring at the Federal level.
    I would also urge creating tools that incentivize the 
States to do the same thing. Because sometimes the delays that 
occur are not just Federal delays, sometimes there are State 
reviews that have to take additional time. Giving the States 
more tools to be able to accelerate is also useful.
    In addition to that, there is a quirky thing in the Federal 
Government when it comes to multi-modal projects, ones that 
involve potentially highways or rail or transit. That is that 
the reviews are sometimes, they require separate reviews. So 
even within our own department, on a project that has different 
modes involved, sometimes we have to have two different sets of 
reviews occur. And it doesn't make sense to me that we do that. 
But it is a requirement that comes that I think could be fixed 
by legislation.
    So I think cleaning some of that up would be useful. It 
would also allow us to move forward without compromising the 
environment and ensuring project integrity.
    The other thing that I would say though is that, I think 
the public has gotten used to a deteriorating system. I would 
urge that if you give us the tools to help speed up projects, 
which I would urge in the way that I just discussed, that we 
also look hard at making sure that we have the resources to 
make the kind of impact on folks' commutes and their ability to 
get goods from farm to market or whatever, and make sure that 
this counts. If you are going to go through the brain damage of 
trying to figure out how to get this done, make it count for 
America and make it so that people actually see it and feel it. 
I think another part of the bang for the buck issue is that if 
we are essentially managing a declining system, folks are also 
going to lose confidence even if we speed up projects.
    Senator Rounds. Mr. Secretary, thank you. Thank you, sir.
    Senator Inhofe. Thank you, Senator Rounds.
    Senator Merkley.
    Senator Merkley. Thank you very much, Mr. Chair, and thank 
you, Secretary Foxx. Thank you for the steady hand and detailed 
presentation and the points that you are hitting on certainly 
resonate in Oregon regarding movement of freight, urban 
transit, innovative financing, support of transportation for 
manufacturing, the connection between rural communities and 
markets, all of these. Well done, and thank you for coming out 
to Oregon to take a look at our Tilikum Crossing that certainly 
the Federal Government was a huge partner in. The network of 
light rail and streetcars and rapid bus transit that is being 
utilized to try to address some of those job to work or home to 
work challenges, the lost time that my colleague from New 
Jersey was talking about.
    Something that has really struck me and certainly resonated 
in my town halls across Oregon is the low percent of our GDP 
that we are investing in infrastructure. I think that is a 
point worth reiterating.
    The numbers I have generally seen, but I have a feeling you 
have better, more detailed insights on this, is that the U.S. 
is now spending less than 2 percent of our GDP on 
infrastructure, that Europe is spending 5 percent, that China 
is spending 10 percent. And I was struck in two trips to China 
10 year apart watching Beijing going from being basically a 
bicycle city to having a bullet train running 200 miles per 
hour. To be on that bullet train was one of the more surreal 
experiences of my life, given what I had seen just a decade 
previous. Massive change due to a huge commitment to 
infrastructure.
    Are those numbers in the ball park, and how does that 
reflect on the difference between the foundation we are 
building for the economy of the next generation and what our 
competitors are doing?
    Mr. Foxx. It is a great question. Those numbers are in the 
ball park. There are several challenges, some of which you have 
pointed out. One of them is that our global competitors have 
the benefit of picking and choosing from the things we have 
done with our system and figuring out which of those things 
they are going to engage in, whether it is rail or highways or 
ports or whatever. It then becomes a matter of, if you are a 
manufacturer, if you can get things from shop to port faster 
somewhere else, it creates a competitive disadvantage for us.
    So one thing is that the rest of the world has looked at 
what we have done and they are building new stuff that in many 
cases is better than ours.
    Second, we have an aging system. Some of the stuff that you 
are talking about in China is relatively new. We have two 
problems. We have new things we need to build that we are not 
building and we have old things that we built a long time ago 
that need to be fixed up. Both of those problems create a huge 
challenge for this Country.
    The third issue that we have is, and I mentioned this 
before, but I think that we have allowed our system to be 
stove-piped. The reality is that if we are going to improve our 
ports, we need to improve our road systems and our bridges and 
our rail systems. If we are going to do all that, we need to 
also make sure that we are taking care of our inter-coastal 
waterways and ensuring free movement there.
    So our system is a system of systems. But we can't starve 
it and expect it to perform for us. To your point, we are 
under-investing.
    Senator Merkley. Thank you very much. Thanks, Mr. Chairman.
    Senator Inhofe. Thank you.
    Senator Carper.
    Senator Carper. Thanks, Mr. Chairman. I want to applaud you 
and Senator Boxer for the spirit in which you approach this 
work. It is an inspiration to me and I think to all of us. And 
I hope it is an example to our colleagues in the Senate and the 
House.
    Senator Inhofe. We will make it work.
    Senator Carper. Mr. Secretary, a lot of nice things have 
been said about you this morning. Some of them really over the 
top. You have been referred to as the Mayor of Charlotte, 
Boston, I don't know what else you have in your background. 
There is an old saying in our State, it says flatter won't hurt 
if you if you don't inhale. So all these nice things that are 
being said about you, just don't breathe too deeply and you 
will be fine.
    One of the takeaways from me, one of the major takeaways 
for me from the election last November was, really three 
things. One, people want us to work together and the spirit 
that Senators Boxer and Inhofe bring to these proceedings is, I 
think, what the folks are looking for across the Country. They 
want us to get something done, something real done, not just 
talk about it, not just bemoan the fact that we are having a 
hard time getting things done, but actually get things done.
    The other thing they want us to do is find ways to further 
strengthen our economic recovery, which is now in almost its 
sixth year and starting to move well. Still, people are 
hurting, there is still a good deal that needs to be done. But 
one of the best things we could do, and others have referred to 
this, a lot of people are sitting on the sidelines who would 
like to do construction work. I understand that a fully funded, 
robust transportation plan would put 600,000 or 700,000 people 
back to work, including a lot of people who haven't worked for 
a while.
    The other thing we have heard, there are any number of 
studies from people a lot smarter than me that have talked 
about it and computed what happened to the growth in our gross 
domestic product if we would actually do a robust 
transportation plan for America. It is not just a tenth of a 
percentage point, it is like between 1 percent and 1.5 percent 
growth in GDP. It is real growth.
    I think it was Senator Capito who used the term the 800 
pound gorilla in the room. I go back to those, there is an 800 
pound gorilla in the room, and it is really our unwillingness 
to really pay for things that we want, or pay for things that 
we need. The energy policy we have, an all of the above 
approach would include generating electricity from gas, coal, 
nuclear, from wind, hydro, solar and other sources. I think 
what we need is maybe an all of the above approach in terms of 
providing transportation funding. Not just financing. There are 
a lot of ways we could finance stuff, which basically means we 
are borrowing money. But we need to fund it as well.
    But through public-private partnership, there is room for 
that, and infrastructure banks, there is probably room for 
that, repatriation could be helpful, especially getting one-
time projects. I think for example, the tunnel I came through 
coming down the northeast corridor this morning under Baltimore 
was built in the Civil War. That is an example of a one-time 
project. It needs a lot of money and could be funded by 
something like repatriation where you have tolling, we have 
vehicles miles traveled. There are some interesting experiments 
in vehicle miles traveled, very slowly advancing. But I think 
it is a good example.
    So all those are available. But the idea that we have not 
talked about a whole lot here is user fees. We have paid for 
our transportation infrastructure for years through user fees. 
The gas tax, as we know it, that was adopted 21 years ago, 
about 18 cents, it is worth about a time, the diesel tax was 
adopted around 21 years ago, it is worth about 15 cents. 
Meanwhile, our asphalt, concrete, steel, they have long ago 
gone up. And we need something like a baseload for our energy, 
coal, nuclear, gas, we need some baseload here for our 
transportation funding.
    There is going to be introduced some bipartisan legislation 
in the House and Senate probably next month that would raise 
that user fee, the gasoline tax, three or four cents a year for 
4 years, index it to the rate of inflation, raise about $175 
billion. It would be a real infrastructure investment program. 
And on top of that, we still need to do a whole lot more. Those 
other items that I referred to would be very helpful.
    My question. You and I have had some good conversations of 
late. Some of my Republican colleagues have talked about, why 
don't we just offset an increase in the user fee by reducing 
personal income taxes for lower income people or others. The 
problem with doing that, we have a $480 billion budget deficit. 
To the extent that we go about reducing the personal income 
taxes, we make the budget deficit bigger.
    One of the things we talked about is finding savings with 
the way we do transportation projects. You have shared a couple 
here today, ideas how we could actually save some money to 
offset whatever increase we have in user fees. Could you just 
briefly talk about two or three of the most important ones, 
most doable ones you think we should focus on and what we could 
do to help?
    Mr. Foxx. I think the project delivery work is an 
opportunity, done right, in a way that doesn't compromise the 
environment, I think it can be done very well. And it would 
save money, not just money at the Federal level, it actually 
would work downstream at the State and local levels as well.
    In addition to that, I think in terms of saving money, I 
think the more we work to accelerate projects that move through 
the system at any given point, whether it is design, 
environmental review, or even as we work on become better with 
innovative financing tools like private activity bonds and so 
forth, those are places where I think we can also stand to 
accelerate and get projects done a little faster. We have 
worked very hard to make the TIFIA program move better and 
faster. I think that has been a success.
    But RRIF still needs some help, and I think the private 
activity bonds work could use some as well. We will continue 
working on those things.
    Senator Carper. I realize you could help us buildup to that 
list and be real partners in this. To the extent that we, as we 
raise moneys, I hope through user fee increases, phased in over 
several years, modest, but real, and to find ways to offset 
those increased user fees through savings, and be able to find 
ways in how we are doing transportation projects to actually do 
them, not in a way that degrades our environment, we are not 
interested in going there, but help us define this. I know you 
are going to have some of your people do that, and we are 
grateful. Thank you.
    Senator Inhofe. Thank you, Senator Carper.
    Senator Barrasso. Thank you, Mr. Chairman. Thank you very 
much for being with us, Mr. Secretary.
    In your statement you talked about we must expedite high 
priority projects. I agree. In Wyoming we have high priority 
projects which could be as small as replacing a single lane 
bridge and as big as replacing a segment of InterState 80. So 
can I ask you to please share how your recommendations on 
expediting project delivery are going to benefit rural areas 
and rural States like Wyoming?
    Mr. Foxx. What we would like to do is to operationalize the 
concurrent review process so that we are doing that on a more 
routine basis, it is not just some of the high profile, big 
dollar projects. But it could be more on a routine basis for 
virtually all projects. I think working with Congress to 
develop those tools, again, to do it in a way that is 
environmentally sensitive, I think we can get that done and 
actually move the ball forward a good bit.
    Senator Barrasso. Thank you.
    Mr. Chairman, in light of the fact that we have a number of 
Governors waiting, I will defer until they get here.
    Senator Inhofe. Thank you, Senator Barrasso.
    Senator Gillibrand.
    Senator Gillibrand. Thank you so much, Mr. Chairman and 
Madam Ranking Member, for holding this hearing. This is an 
incredibly important issue for New York State.
    Mass transit is critical to the economic viability f not 
only New York, but every State in the Country. On an average 
weekday, nearly 8.5 million Americans ride the trains, subways 
and buses in New York City, which generates significant 
economic revenue. Would you agree that it is critically 
important for mass transit to continue to receive designate 
funding through the mass transit account of the Highway Trust 
Fund? Can you discuss some of the negative impacts to our 
national economy and to regional economies across the Country 
if the Congress were to cut funding for public transit?
    Mr. Foxx. Absolutely, I agree that we need to maintain 
resources for mass transit. It is vitally important, of course 
in the State of New York and many other parts of the Country. 
There is also a very substantial rural transit program we have 
that is also vital to many rural communities as well.
    If Congress were to eliminate that funding, what would 
happen is that our roadways in high-use areas of the Country 
would become inundated with traffic. Freight movements and 
commutes would actually stall. That would be a disaster for the 
Country.
    What we really need is a Nation that moves more toward 
multi-modal movement, and one in which the users have choice. 
The more choices they have, potentially you get more cars off 
the road. That enables more bandwidth for trucks and other 
commercial activities to occur. So this is all symbiotic. If we 
lose the transit piece, I think we end up creating other 
problems.
    Senator Gillibrand. Super Storm Sandy resulted in a 
whopping $8 million of physical damage to the region's 
transportation infrastructure and affected nearly 8.5 million 
public transit riders, 4.2 million drivers and 1 million air 
travelers. For nearly 2 years after Sandy, New York City has 
not only worked to repair and restore its transportation 
infrastructure from the storm's damage but is also taking steps 
to improve the resiliency of its transit network. However, 
there is much more work to be done.
    Can you speak to some of the challenges with regard to 
constructing a more resilient transportation network, what has 
been effective so far, and what policies would be most helpful 
to ensure that the DOT as well as State and local governments 
have the tools they need to improve resiliency and plan for 
future extreme weather?
    Mr. Foxx. This is another very important topic, and it is 
one that cuts across many of the Department's programs, whether 
they are highway, rail, transit, maritime, etc. We learned a 
lot when we got involved with the Hurricane Sandy recovery. We 
are taking the learning we derived from that and trying to 
build into more of our programs routine resilient construction.
    So for instance, we found that stoplights needed to be 
wedged into the ground deeper to be more resilient. We found 
that in the subways in New York, where the electrical wires had 
been under the trains, that putting them above the trains and 
encasing them in a thicker material would provide more 
resilience. So these best practices aren't being left in the 
Northeast. We are actually trying to see those get implemented 
in other parts of the Country, so that we are building more 
resiliently going forward.
    Having said that, one of the challenges we are going to 
keep running into is, we are under-investing in our 
infrastructure overall. So in terms of actually building a more 
resilient America, the less funding we have available, the less 
we are going to be able to make an impact.
    Senator Gillibrand. My last question, I know you addressed 
already but I will ask it, improving pedestrian safety is a 
critical issue in New York and one that local leaders in my 
State are working very hard to address, whether it is Vision 
Zero in New York City or projects to improve sidewalks and 
crosswalks in upState New York. Building pedestrian 
infrastructure into how we design our streets saves lives.
    As this committee works to reauthorize MAP-21, we should 
make sure that we continue to invest in critical safety 
programs that protect the safety of pedestrians, including 
children and the elderly and people with disabilities. What 
would be the implications of failing to adequately address 
pedestrian safety at the Federal level?
    Mr. Foxx. It is an incredibly important question, Senator. 
Between 2009 and 2013, we actually saw an uptick in pedestrian 
and bicycle deaths as well as accidents. It is one of the few 
areas in our entire Department where we are actually seeing 
that uptick. So we have to attack this as a Country. We have to 
use a multi-tiered strategy. Our Transportation Alternatives 
Program, which provides us resources to help support bicycle 
and pedestrian programs, has been useful. We have also made 
significant investments through TIGER to help promote best 
practices, including New York City's Vision Zero program.
    Finally, we are working with mayors across the Country now 
to encourage them toward best practices in information sharing. 
A lot of the capital expenditure for road assets across the 
Country are at the local level.
    Senator Inhofe. Thank you. Thank you, Secretary Foxx. We 
are going to really enjoy this ride with you. I think you are 
the right guy at the most difficult time. We will make this 
happen together. Thank you for your service.
    Mr. Foxx. Thank you, Mr. Chairman. Thank you, Ranking 
Member Boxer.
    Senator Inhofe. I would like to ask the second panel to 
come in. I believe they are all in the anteroom. Our first 
introducer will be Senator Sessions. He is trying to get to 
another committee hearing. We will have our witnesses please 
come in and sit down.
    Senator Sessions. Mr. Chairman, I think our new Senate is 
trying to get busy today. We have four major committees at this 
exact time going on that I am a member of. I know others are 
having conflicts, too.
    Senator Inhofe. And on top of that, something like 16 
votes. We are going to be busy.
    At this time, I would like to welcome our panel. We have 
had a little bit of illness around, and it has changed the 
makeup of the panel a little bit. I would first like to 
introduce for introductory purposes Senator Sessions.
    Senator Sessions. Thank you, Mr. Chairman.
    I am honored to introduce Governor Robert Bentley, the 53d 
Governor of the State of Alabama. He is a long-term practicing 
physician. It is reported he finished at the top of his medical 
class. I haven't asked him that under oath, but I would not be 
surprised. In fact, I am sure that is accurate.
    He served in the Air Force, and he made job creation a 
priority with automobile, airspace and manufacturing industries 
in Alabama, showing some real growth. He is Vice Chair of the 
Economic Development and Commerce Committee of the National 
Governors Association. He has a great understanding of the 
fiscal challenges facing our States. He was just re-elected 
despite having to make some real tough decisions to control 
spending. Had a big victory in this past election. He 
understands the fiscal challenges we face, what our States need 
to do to assure taxpayers' money is spent wisely. He has been 
leading a host of efforts to streamline and reduce unnecessary 
costs and spending.
    Governor Bentley, thank you for coming. It has been a 
pleasure for me to work with you. I have the highest respect 
for you. I would say this, Mr. Chairman. I won't be able to 
participate in the questioning, I don't think. We will see how 
that works out. I hope to get back. But I share your view and 
that of Senator Boxer that we need a highway plan that we can 
pass that is soundly financed and paid for that allows our 
Governors to rely on the future, so they can plan for their 
future. It is cost money, or reducing the value of the money we 
spent, because of the uncertainty that is out there. Even 
though you know I am a frugal budget person, somehow we need to 
make this one work. I will try to be positive in that regard.
    Thank you for your leadership and thank you for inviting 
Governor Bentley.
    Senator Inhofe. Thank you very much, Senator Sessions, for 
that fine introduction of the Governor.
    We recognize Senator Rounds for his introduction. I believe 
I met your guest when I was up in South Dakota.
    Senator Rounds. That is entirely possible, Mr. Chairman and 
Ranking Member Boxer. My opportunity today is to first of all 
introduce the Secretary of the Department of Transportation in 
South Dakota, Darin Bergquist. I have known Darin for years, 
and I had the opportunity to actually appoint him as the 
Secretary of Transportation when I was Governor. So I can share 
with all of you, he has seen the ins and outs and challenges of 
trying to work with limited funding and in a rural State in 
which there is always a challenge in terms of how you take the 
dollars and spread them out and literally deliver the best you 
can and yet come back to a legislative body who is always 
questioning how you are spending the money.
    If I could, I just want to share with you, in South Dakota 
we have challenges like everyone else. But it is a rural State, 
we are 200 miles up and down and 400 miles east and west. We 
have 85,000 miles of highway. Local governments own 57 percent 
of the Federal aid highway miles within the State and 91 
percent of the State's structurally deficient bridges. The 
Federal Highway program is vital to ensuring South Dakota has 
the funds that we need to manage our State's highways and 
bridges, thereby providing for economic growth and ensuring 
that all South Dakotans can travel safely throughout the State 
every single day.
    I can share with you that I look forward to working with 
the other members on this committee and with you, Mr. Chairman, 
and Ranking Member Boxer. We do need an infrastructure bill, we 
need a Highway Bill, one that delivers for transportation needs 
across the entire United States. I just hope that as we move 
through this process, we find an appropriate way to fund it on 
a longer term basis, and we also recognize that we have to do 
this as efficiently as we possibly can, and that means cutting 
through as much red tape as we can when it comes to delivering 
these services.
    Something else, and that is that we work through this in a 
positive way, rural and urban areas, recognizing that our needs 
are truly different in many cases. But we are going to have to 
find a way to keep all of us in the same game, and recognize 
the needs of both the rural and the urban States in this 
methodology.
    With that, Mr. Chairman, thank you.
    Senator Inhofe. Thank you for that very fine introduction.
    Senator Sanders.
    Senator Sanders. Thank you very much, Senator Inhofe. I 
apologize for not being here earlier, but I was in another 
committee.
    Thank you very much for inviting Governor Peter Shumlin of 
Vermont to be with us today. As Senator Rounds just mentioned, 
I think everybody on this committee understands our 
infrastructure is in many ways collapsing. We used to lead the 
world in terms of infrastructure. According to the World 
Economic Forum, we are now in twelfth place. That is not 
anything that anybody on this committee should be proud of.
    In the State of Vermont, we have the same infrastructure 
problems as a rural State that every other State in the Country 
has. We have communities with a whole lot of potholes, we have 
congestion. We have bridges that are in disrepair. Some years 
ago, and Governor Shumlin played a very active role in helping 
us in that regard, we were hit with Hurricane Irene. 
Devastation to our infrastructure in parts of the State. We 
worked very hard to rebuild that infrastructure.
    So I appreciate your efforts, Mr. Chairman, and you are 
going to be working with Senator Boxer. There is a lot of 
division in the Congress today but I would hope that on this 
issue there is a common understanding that we are doing our 
kids and grandchildren a great disservice if we don't own up to 
the infrastructure problems that we have right now, that we 
work with Governors around the Country to go forward on this 
issue.
    Mr. Chairman, thank you very much.
    Senator Inhofe. Thank you, Senator.
    Let me just make this comment. We are very proud to have 
all of you here. We had some illness, and the full panel is not 
here. But I appreciate very much your coming. It is important. 
And I do believe, when I look at this politically, it is going 
to be necessary to have a lot of pressure, a lot of pressure 
from the State in order to have the support necessary to get 
this through. It is going to be heavy lifting, but we know you 
guys are available and able to do that.
    We will start with opening statements. Governor Bentley, 
you will be recognized first.

               STATEMENT OF HON. ROBERT BENTLEY, 
                   GOVERNOR, STATE OF ALABAMA

    Governor Bentley. Thank you, sir. And good morning, 
everyone.
    It is a pleasure for me to be with you, Senator Inhofe and 
Senator Boxer. I appreciate Senator Sessions' great 
introduction of me. He is a good friend, and I appreciate all 
of you, all the members of this committee.
    I am here on behalf of the National Governors Association 
and also the people of Alabama. Governor Tomlin and I are on 
the National Governors Association Economic Development and 
Commerce Committee. We serve together on a bipartisan basis. 
All the Governors of the States have basically the same 
problems that have just been mentioned today.
    I am here today to highlight some of these problems and 
some of the situations that we have. The first priority, when 
we look at priorities, is really to continue to maintain a 
strong partnership between the Federal Government and the State 
governments. There are selected projects across this Country 
that are of national and regional significance, that States and 
the Federal Government can partner together on that will 
benefit our entire Country.
    One such project is in Alabama, it is our Mobile River 
Bridge, also known as the I-10 Bridge. Senator Sessions, who 
had to step out, he knows this very well. This is a project 
that reduces congestion in the tunnels that helps with the 
growth of our great city there, Mobile. This is a major project 
that we need to be working on.
    One of the second priorities that we need to look at is 
long-term funding, which has already been mentioned. Funding 
certainty at the Federal level is essential for planning and 
for budgeting for future projects. We as Governors are CEOs of 
the States. We understand how important transportation 
infrastructure is to creating jobs in our States. Certainty 
allows Governors the ability to plan and to execute long-term 
multi-year transportation projects.
    Since I took office in 2011, we have recruited 63,000 new 
and future jobs for the State of Alabama. Good infrastructure 
is a key part of the environment that is needed to create the 
jobs in our State. In Alabama, we are witnessing first-hand the 
successful partnership of job creation and infrastructure 
improvement. The first week, my first term of office, I met and 
recruited a $100 million company, Golden Dragon Copper Tubing, 
to Wilcox County, which is the county with the highest 
unemployment rate in the State of Alabama. This new facility 
will employ 300 people and not only will it change this 
community, but it will change those families that live there 
and it will change a way of life.
    The State gave $7 million of construction money to build 
roads to this plant. And it will make a difference in the lives 
of the people of that area.
    The third thing that I would like to mention is the 
flexibility that we need in Federal dollars. The earmarking of 
Federal dollars hurts the ability of Governors to allocate 
funds within our States. I want to share also in my testimony 
very quickly, I want to share a program that I have started. It 
is an innovative program that we have started in Alabama. It is 
something we call the ATRIP program. We have put $1 billion to 
repair the roads and bridges of every county in the State of 
Alabama. We use Garvey bonds to do this.
    We have been able to borrow these at a very low interest 
rate. And the fact that have ourselves used our gasoline money 
to back these bonds, we have been able to save $35 million 
more.
    Every county in the State of Alabama, 67 counties, will 
receive projects. And the least any county will receive is $6.6 
million. This spring, Congress will have the opportunity to set 
a new vision for infrastructure investment in America.
    As a Country, we must show that if we are serious about our 
economy, that we must get serious about investing in our roads 
and bridges. Governors urge Congress to pass a long-term 
transportation bill that provides the certainty needed to plan 
for future projects and the flexibility needed to tailor those 
projects to the unique challenges that faces each State. 
Governors look forward to working with you, Congress, and the 
Administration, to authorize long-term funding. I thank you 
today for the opportunity to come and testify before you.
    [The prepared statement of Governor Bentley follows:]
     [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
   
    Senator Inhofe. Thank you, Governor Bentley.
    Governor Shumlin.

               STATEMENT OF HON. PETER SHUMLIN, 
                   GOVERNOR, STATE OF VERMONT

    Governor Shumlin. Thank you so much, Chairman Inhofe. I 
really appreciate your inviting us down. To Ranking Member 
Boxer, thank you so much for hearing us out, and to the entire 
committee. I want to thank Senator Sanders for that 
introduction. It is a real honor to be here.
    I am honored to be here too with Governor Bentley on behalf 
of the NGA. Governor Bentley and I have worked together on 
opiate addiction issues, lots of other issues. And I think he 
stated the case well in saying that Governors in all 50 States, 
on a bipartisan basis, want to partner with you to get this job 
done. Because we all know that our economic prosperity, our 
national security, and our ability to improve the quality of 
life depends upon fixing our crumbling and aging 
infrastructure.
    I know that I am looking forward to hearing from Secretary 
Bergquist as well. I know that his Governor wished to be here. 
I send the regrets of Governor Malloy of Connecticut. We got 
whacked pretty hard in the Northeast, a little bit of a 
snowstorm, and our transportation infrastructure. He would be 
here if he were not digging out. In Vermont we got hit, too, 
but our southern States are not as accustomed to snow as we are 
up in Vermont. So he is still digging. That is the deep South, 
too, Governor Bentley.
    [Laughter.]
    Governor Shumlin. I am going to paraphrase a little bit, 
because I know that my comments were put in. Governor Bentley 
basically just sent my message for me. We know that we can't 
prosper as a Nation unless we fix what Senator Sanders referred 
to, which is, we used to be No. 1, we are fourteenth. You all 
together with the U.S. Senate have the ability to fix this 
challenge for us with Congress.
    I want you to know, sort of on the ground, as a Governor, 
what this means to a small, rural State, and what it means to 
Vermont is not all that different than what it means to Wyoming 
or Alabama or Idaho or South Dakota or North Dakota or New 
Hampshire. Our challenge in smaller, rural States is that we 
sometimes forget that 80 percent of our transportation network, 
3.1 million miles of roads and thousands and thousands of 
bridges, runs through our rural States.
    So if you take Vermont as an example, when we talk about 
crumbling infrastructure, you can say, well, you know, Vermont 
doesn't have that many people. So why does it really matter to 
the Nation's economy? Well, it matters not only to Vermonters' 
quality of life, but we happen, as an example, and many other 
rural States are in the same boat, bordering Canada, we are the 
transportation conduit to our biggest trading partner in 
America, Canada.
    Projections going forward are that in the next three 
decades we are going to see our freight transportation increase 
by 50 percent. And we have a crumbling infrastructure right 
now.
    So in terms of jobs and prosperity, the rural States 
actually carry a bigger burden, because we have more to 
maintain. And we all know that infrastructure is crumbling and 
it has to be rebuilt.
    So I just want to make the point that when you look at this 
challenge of reauthorizing the Transportation Trust Fund, it is 
important to remember that the rural States really have a 
special burden. Now, the Northeast States have an increased 
burden as well just simply because of climate. If you look at 
what we are facing together, we are dealing with a much 
shortened construction season. We obviously have freezing and 
thawing that takes an extraordinary toll on our pavement and 
our bridges. And we have to throw salt on them like there is no 
end to it, which is really terrible for steel, which is 
critical to bridges. It frankly doesn't help pavement much, 
either. So in a sense, the colder States, I would argue, but 
all the rural States are in this one together.
    I want to just say a word about, in listening to the rural 
States' challenges, I want to say a word about the funding and 
what it really means for those of us who are in that challenge, 
as we are losing the battle. For me, and Governor Bentley just 
made reference to it in his Garvey bonds, he is in the same 
boat. We rely upon an ongoing funding stream from the Feds to 
do our work. What happens to a Governor like me is that when 
there is uncertainty about funding or when the Fund is out of 
money and you are literally unable to send the match back to 
the States, we are in a terrible position of having to dig for 
cash that we didn't anticipate we would need. Or turning to 
contractors and simply saying, we can't do the work that we 
contracted with you to do, because we are not sure we can pay 
the bill.
    This is the reality for Governors across America. So we 
have to remember that when we talk about getting this done, and 
we know that May is the drop-dead date, in my case, next month 
we will start letting contracts for the work to be done next 
spring. And remember, in a State like Vermont or in the 
Northeast, your paving season and your building season runs 
from mid-April, if you get lucky, early May, until October, 
somewhere around Thanksgiving it starts to freeze and you can't 
make pavement below 32 degrees, as you know. So those are the 
challenges that we face together, both timing and funding.
    I just want to make a comment about funding. There is 
sometimes the perception that States can go it alone, that they 
can figure this out without the partnership of the Federal 
Government. I want to remind us that, particularly the small, 
rural States don't have the options for funding that some of 
the larger States might have. I go across the George Washington 
Bridge with the EZ Pass and I dream of having that kind of 
volume and that kind of passage to get over a bridge. We are 
often asked, when we hit our transportation challenges, why 
don't you do tolls in Vermont? Well, we don't have enough 
people to pay the tolls. We don't have enough traffic to go 
through. It literally would not be a great giving proposition 
for us, in all the studies that we have done.
    So let's remember that while the small, rural States have a 
more intense infrastructure, more miles and bridges to 
maintain, we have fewer funding sources to do it. So I really 
appreciate the opportunity to be before you today, and we would 
love to answer any questions that you have.
    I just want to make four quick recommendations, if I could.
    [The prepared statement of Governor Shumlin follows:]
     [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]    

   
    Senator Inhofe. I am afraid we can't do that, Governor.
    Thank you very much for your presentation. Secretary 
Bergquist.

  STATEMENT OF DARIN BERGQUIST, SECRETARY OF TRANSPORTATION, 
                     STATE OF SOUTH DAKOTA

    Mr. Bergquist. Thank you, Chairman Inhofe, Ranking Member 
Boxer, Senator Rounds and members of the committee.
    I appreciate the opportunity to be here in front of this 
committee this morning on behalf of South Dakota Governor 
Dennis Daugaard. Governor Daugaard really wanted to be here 
himself to tell you our story, because he understands and 
appreciates the importance of strong transportation investment 
to our State. He sends his regrets that he was not able to be 
here today.
    But on his behalf, I would like to highlight a few of the 
key points of his written statement. First of all, we thank you 
for holding this hearing early in this Congress. This tell us 
that the committee appreciates the prompt action to pass good 
Federal surface transportation legislation that will benefit 
the Nation. The Nation needs strong Federal transportation 
funding and long-term financial stability for the highway and 
transportation program in order to strengthen the economy and 
the Nation.
    We believe the transportation program should continue to 
distribute the vast majority of funds to the States by formula. 
It should further simplify regulations and program 
requirements, providing States with additional flexibility to 
meet their unique individual needs.
    The Federal transportation program must connect a Nation, 
including rural areas like ours. A rural State like South 
Dakota is far from markets and population centers, but our 
contributions are important to the national economy. South 
Dakota and other rural States are the sources of products, 
resources and recreational opportunities that help define us as 
a Nation. Our highways connect cities like Chicago and to the 
west coast, enable agriculture and other goods to move to 
national and rural markets, and allow people to visit great 
places like Mount Rushmore and other parks and attractions that 
are located in rural areas.
    Extensions and very short-term authorizations are a 
particular problem for a State like ours, with a cold climate 
and a very short construction season. Without a multi-year 
funding, we have to focus more than we would like on short-term 
and smaller projects.
    I also want to empathize that the need for highway and 
transportation investment is apparent, and States are taking 
action. In South Dakota, Governor Daugaard just this week 
introduced a proposal to our legislative session that would 
significantly increase State investment in transportation in 
South Dakota.
    While we are trying to do our part, States cannot do it 
alone. We need a strong Federal program. Large rural States 
like South Dakota have very few people to support each mile of 
Federal highway and be able to maintain our potion of the 
national highway system. The rural population of 7 billion 
people is expected to grow by 70 million a year, and we need to 
export our crops and products to help feed them.
    Sixty-five percent of the truck traffic in South Dakota is 
through commerce, meaning it does not originate in nor have a 
destination in our State. But it certainly serves the Nation.
    Before closing, Mr. Chairman, we would like to encourage 
you to do what you can to simplify the transportation program 
and make it more flexible. We know there necessarily must be 
some requirements for the Federal program. But this is an area 
where, for the public interest, less is more. As an example, 
one proposed rule, States collect multiple data items for all 
public roads. As it turns out, this includes gravel and dirt 
roads, which make up the majority of the roads in our State. 
This is not a priority use of scarce funds. So we urge the 
Congress to simplify the program where it can so that program 
dollars can provide more transportation investment in projects 
that improve our system.
    In summary, strong and stable Federal funding, along with 
flexibility that reduces requirements, will help States provide 
the transportation system that the Nation needs. Congress 
should continue to distribute the vast majority of program 
funds by formula and of course, Federal surface transportation 
legislation must continue to recognize that significant Federal 
investment in highways and in rural areas like ours is in the 
national interest.
    Again, Mr. Chairman, thank you for the opportunity. I would 
be glad to answer any questions.
    Senator Inhofe. Thank you, Secretary Bergquist, an 
excellent statement.
    The Chair is going to take the prerogative to go ahead and 
start, if it is all right with the rest of you, with Governor 
Bentley, who has a particular scheduling problem. So I will 
recognize you at this time to respond to questions.
    And I would only make this one comment, Governor Bentley. 
You talked about certainty. This is always a problem that you 
have when you are dealing with government. Right now, there is 
always the uncertainty of all these regulations that are out 
there that are creating hardships on people. Certainly it is 
true in this area, too.
    Is there anything you would like to elaborate on concerning 
the certainty issue that you raised?
    Governor Bentley. I think certainty probably is the most 
important thing that we are asking for on a State level. And if 
we have the certainty, whatever that certainty is, we can deal 
with it. It is so difficult for us as a State to not know 
whether or not we will get funding. If this ends in May, which 
it supposedly will, it makes it difficult for all of us.
    One of the things that I have put in place in Alabama, that 
I have talked about, is we put $1 billion into the repair of 
our roads and bridges. We need to repair what we already have. 
We can't just build new roads and bridges. We have to repair 
what we have and make sure that they are functional.
    So we have borrowed $1 billion and we have gotten it at 
such a low rate simply because we have such a high bond rating 
in Alabama. But we need $69 million every year to pay off those 
bonds over the next 18 or 19 years.
    So we just need certainty, whatever that certainty is. 
Whatever the Federal Government can help us with. And we 
appreciate that partnership. That is one of the things, it is a 
partnership. All the States connect, obviously, so it is a 
partnership.
    So the certainty to me is the most important thing, and 
that is what we need the most.
    Senator Inhofe. Very good. Senator Boxer.
    Senator Boxer. Thank you. I just want to thank our panel. 
Mr. Bergquist, I just want to make a quick point and then I am 
going to ask the Governor.
    I am so for simplification and flexibility. I work with 
Senator Inhofe, and he will tell you that I came a long way on 
that point. But we do have to protect taxpayers here. So I 
think for me, I want to make sure I am protecting taxpayers. So 
just keep that in mind, that we have to find that sweet spot. 
That sweet spot may look a little different to you than it does 
through my eyes. But we are going to work together on this.
    Governors, thank you. I know how hard it is to get here and 
to take you away from your States. Governor Bentley, I was so 
interested in your Alabama Transportation Rehabilitation 
Improvement Program. It is a $1 billion dollar program, am I 
right on that point?
    Governor Bentley. Yes, ma'am.
    Senator Boxer. A billion dollar program. And the reason you 
can do this, you are counting on future Federal dollars. So you 
have the Garvey bonds, is that a correct explanation of how it 
works?
    Governor Bentley. Yes, it is.
    Senator Boxer. Yes. And so I just guessed, because I think 
your point about certainty is so key, we would like you in 
another way, in your very eloquent way, explain to us why 
certainty is so critical. And if you didn't have the certainty 
of this Federal bill, how it could impact you back home. Again, 
I know it is repetitious, but that is the message I would like 
to see go out of this hearing.
    Governor Bentley. Again, let me say, I think certainty is 
the most important thing that we have to deal with. Over the 
last five or 6 years, we have not had that certainty, 
obviously. And so we need it to plan. If we don't have, we need 
five, six, ten, whatever the number of years that you decide, 
we just need to know what those are. And we need to plan 
accordingly.
    And this program that I have put in place and was able to 
actually put in place without legislation, because the people 
of Alabama had allowed us to borrow the Garvey bonds. And so we 
are using future Federal dollars.
    Senator Boxer. Right.
    Governor Bentley. And so the certainty is so important for 
me, because I have signed $1 billion on bonds. And I want to 
make sure we pay it back. And we can pay it back in two ways. 
No. 1 is, if the Federal Government will help, continue to give 
us some certainty about what they are going to give the States. 
Plus the fact that we can do it better because in Alabama we 
have such a great bond rating. We have a better bond rating 
than the Federal Government.
    So we were able to borrow this money at such a low rate, 
certainly lower than inflation rate for delaying the repairs on 
these roads and bridges. So certainty is just, it is essential 
to us.
    Senator Boxer. Thank you, Governor. I know you speak for 
both Governors here.
    My last question to you is, it is interesting to learn 
about the I-10 bridge project. And you noted there are some 
projects of national and regional significance that are too 
large to be funded without specific Federal assistance.
    Do you believe a Federal program to allow these types of 
projects to compete against one another, in addition to core 
highway formula funding, would be popular among the States, 
these projects of national significance?
    Governor Bentley. Well, I would rather have them to compete 
than not have it at all.
    Senator Boxer. I hear you.
    Governor Bentley. Because I think that competition is 
always good. I think that as a Federal Government, and I am not 
speaking for the Federal Government, because I run the State of 
Alabama. But I think that you do have to look at what is the 
most important for our security, for our economy, for our 
safety. All of those things you have to look at when you look 
at these types of projects outside of the normal funding 
stream.
    Senator Boxer. Thank you so much.
    Senator Inhofe. Thank you, Senator Boxer.
    Senator Boozman.
    Senator Boozman. Thank you, Mr. Chairman, and thank you all 
for being here.
    In relation to this, can you tell us the impact of the 2-
year bill versus a five-ear bill, what that does as far as 
certainty, the necessity of the longer bill versus the 2-year 
bill? The other thing I would like for you to think about along 
with that is, one of the frustrations we have is, you mentioned 
that we were No. 1 in infrastructure. I think if you look back, 
when we were No. 1, probably the percentage of what the States 
were doing was more than it is now, as opposed to what the Feds 
are doing.
    I think one of the frustrations we have is that as we put 
money into the States, because of the fiscal constraints of the 
States with things like prisons and Medicaid and education and 
things like that, the States have a tendency sometimes to 
shrink back and things stay the same as opposed to increasing.
    You mentioned, Governor Shumlin, about your small State. 
Arkansas is a small State. To our credit, we passed a half cent 
sales tax to try and overcome the problems that you have. I 
wish coming across the 14th Street Bridge every day that we 
could give you some of our traffic.
    [Laughter.]
    Senator Boozman. That would make my life and many other 
commuters a lot easier.
    But comment on the two versus the 5-year bill. And then 
also the problems, how do we ensure that as we try and do the 
very best that we can do to get money into the States that is 
actually an improvement versus the State shrinking back?
    Governor Shumlin. So in terms of the two to five, the more 
certainty you can give us. Obviously five is better than two. I 
have to say that Governor Bentley and I have both served in an 
environment where we would love to have two, because we have 
been working month to month. Since we have been Governors, we 
have been Governors for 4 years.
    So needless to say, the more certainty you can give us, the 
longer period of time, the happier all Governors will be. 
Particularly in a situation where you are dealing with Garvey 
bonds, as Governor Bentley is. He said to Wall Street, we have 
an ongoing funding source from the Feds, so I can to the folks 
of Alabama and say, with certainty, we are going to be all 
right. But we need it too, because obviously we make similar 
decisions. All Governors do.
    Senator Boozman. So the two versus the five actually drives 
the cost up. Not only is there a certainty issue, but with your 
contractors, things like that, you are actually driving up the 
cost of the construction projects also.
    Governor Shumlin. Absolutely, Senator.
    The second piece is in terms of the partnership. My 
experience has been that we have had to increase our State 
contribution just to keep up with our Federal match. What I 
mean by that is unfortunately, the gas tax is a dwindling tax. 
Not so unfortunately, it is for good reasons. People are 
driving less miles and they are driving more efficient 
vehicles. But we all know that in the long run, we are going to 
have to figure out another way to drive revenue, both 
nationally and in the States. We are going to have to go to 
miles traveled or some other way of doing this. There is no 
reason why an electric car shouldn't be paying for the roads, 
too.
    Having said that, in my State as an example, we could not 
keep up with our Federal match because of dwindling gas taxes 
without asking for more from Vermonters just to meet what we 
had already gotten in the past. In other words, I was about to 
give up $40 million of Federal funding, which for me, an 
average transportation budget of about $400 million, that is 10 
percent, we are talking real money, having to cancel projects 
that are critically important as our bridges and roads 
crumbled.
    So what I did is, and I don't like raising taxes, but we 
raised it from 20 cents to 26 cents. We triggered half of it 
toward volume and half of it toward sales, so that we would be 
able to play the price as they go up and down without obviously 
in a period like we are in right now, where the price of gas is 
cut in half. We would have been totally demoralized if we 
hadn't based at least part of it on volume. But Vermonters are 
making a bigger effort to just, from a tax standpoint, to make 
that Federal match, than we were in the past. So I don't know 
if Vermont is unique, but I can tell you we are definitely not 
backing off on our residents' commitment to rebuild roads and 
bridges. We have been asking for more from them, and I think a 
lot of Governors have.
    Senator Boozman. Mr. Bergquist.
    Mr. Bergquist. One of the challenges with the 2-year to the 
5-year program is that due to the length of time it takes to 
deliver any project of any size, once we have that security of 
having a 2-year program, by the time we can start planning and 
deliver a project the program is unfortunately over and we are 
back into a short-term situation like we are unfortunately 
accustomed to dealing with.
    I agree with the Governor's comments, too, on some of the 
negative impact of the short-term, month to month type of 
business that we are doing now. It is resulting in not 
necessarily being able to do the optimal treatments to our 
roads. We are just doing what we can in a short period of time. 
Oftentimes it is a band-aid type fix that may not be the 
financially best thing to do, but the only thing that can be 
done at the time.
    Senator Boozman. Thank you, Mr. Chair.
    Senator Inhofe. Thank you. Senator Whitehouse? And we are 
trying to confine our questions right now to Governor Bentley, 
if we could.
    Senator Whitehouse. Thank you, Chairman. These will 
certainly be Governor-oriented questions. In Rhode Island, let 
me say what we are seeing, and if it sounds familiar to the 
Governors, let me know. We are seeing the Federal formula 
highway funds increasingly subscribed over time. And we are 
seeing static revenue from that. We are not seeing big Federal 
increases that are funding growth in the highway program.
    We are also seeing maintenance costs for the existing 
infrastructure climbing. That eats into the static Federal 
revenues. We are seeing debt service on our Garvey bonds eat up 
a chunk of what would otherwise be going out into roads and to 
bridges. And we are seeing uncertainty in the out years about 
whether that Federal funding is really going to be there.
    What we get from all of that is a distinction between 
little projects that you know you can fund that can run for a 
year or two, you can get it done, and that you can fit into 
that shrinking remaining available portion of our highway 
budget, and the big projects that our transportation officials 
know are out there, know we have to grapple with some day. But 
there is no slug of money big enough to take them on. And if 
you are going to spread them out over many, many years, that 
raises the cost in many cases. It also takes you beyond your 
comfort level of whether the Federal funding is really going to 
be there, given the uncertainty that has been created by all 
the fiscal and budget hijinks that have gone on here in 
Washington.
    So what that leaves us with is some big projects that we 
really have no way to get into our highway program responsibly. 
Does any of that sound familiar to the Governors? I see both 
heads nodding, let the record reflect. So what I want to make 
sure that we do, and this echoes a little bit the Ranking 
Member's question, is that there be a pool of funding for 
projects that are big and significant. Instead of giving them 
out, because I know a lot of people don't like earmarks, it 
should be a competitive grant program. But it would at least 
provide a vehicle for those big projects to be brought online 
before a big calamity happens, a very expensive bridge, a major 
highway overpass or intersection, things like that just strafe 
small State budgets.
    Does that seem like a sensible notion to you, that for 
these big projects there be a specialized source of funds that 
you could compete for to get them handled, where they can't be 
reached through ordinary funding?
    Governor Bentley. I personally believe that what you said 
is exactly what I said in my testimony. There has to be a 
different stream of funding for those type projects. And they 
should be, they should be competitive. And we need to decide 
their national significant. We need to decide the safety of the 
area. For instance, I mentioned the bridge over the bay in 
Mobile. We have all the highways coming to one tunnel. We have 
hazardous material that is transported through that. And so 
there are so many things that you have to look at. Competition 
is good. I think you shouldn't have a bridge to nowhere.
    I personally am against earmarking just for the sake of 
earmarking for political reasons. I believe that the earmarking 
should be done for what you are talking about, and I believe I 
am talking about, which is national and regional significance. 
And you do have to compete, in order to get those funds.
    Senator Whitehouse. Mr. Chairman, if I could make one final 
remark. One of the flaws in the stimulus program that we put 
together and passed in the depths of the recession was that our 
rush for shovel-ready projects meant the only ones we could get 
into the pipe were the ones that were already on the books of 
our transportation organizations. So those big ones that are 
waiting out there, which would have been a great opportunity, 
we missed.
    So that is another reason, I think, that we need to make 
sure we do this projects of national and regional significance. 
I thank the Chairman for his courtesy.
    Senator Inhofe. Thank you, Senator Whitehouse.
    Senator Rounds.
    Senator Rounds. Mr. Chairman, I will yield. I will just say 
it is refreshing to have Governors come in and give that good 
dose of common sense. We appreciate it.
    Senator Inhofe. At this time we will excuse you, Governor 
Bentley. I know you have a scheduling program. Thank you very 
much.
    Governor Shumlin, I didn't mean to be discourteous to you 
when you were first talking. You had four points you were going 
to end up with which I did not hear, since I didn't give you 
time to express them.
    Governor Shumlin. I think we have covered them, actually, 
Mr. Chairman. Thanks for that opportunity. I would like to 
respond to the question of competing for large projects. I 
would just add that I think that Senator Whitehouse is on 
target. A program like that makes sense. I do want to point out 
that the small, rural States who have 80 percent of the 
highways, roads and bridges to maintain, have a tough time 
competing with big State projects. So if you are going to do 
that, some kind of set-aside to recognize the difference in 
steel is important. Because while we have more miles covered 
and more bridges on those miles, we don't necessarily have the 
huge individual project that frankly, a heavily populated State 
would have.
    Senator Inhofe. Yes, and Governor, that is something we are 
all going to be working on. Because it is very meaningful.
    Let me just make one comment. When they were talking about 
the earmarks, there is a great misunderstanding here. One of 
the few, and this is my observation, one of the few things that 
really does work well with the Federal Government is the way 
the Highway Trust Fund is set up. It responds back to the needs 
of the State.
    I think not many people knew that when we did our last, 
particularly the 2005 bill, we made an effort to listen to the 
States, recognizing that they know more what is good for them, 
whether it is Alaska or anywhere else, than our infinite wisdom 
here in Washington. So I think it is something that has worked 
well. The problem was, if they would use another word when they 
are messing around with this thing, then we wouldn't be having 
the problems we are having now. There is a big difference 
between earmarks as most people think of earmarks and earmarks 
as they come from the States, from the departments of 
transportation. That is why I think it is great, and hopefully 
we can address this and take care of these problems we are 
talking about right now. That would be kind of fine tuning it.
    The big problem is, though, we have all those issues out 
there, and we have to do it. I know a lot of people kind of 
forget, it always sounds good when you say, well, let's just 
keep all of our money in the State. Well, that is fine if you 
are in a position to do that. But if you are from Wyoming or 
South Dakota or North Dakota, you have lots of roads and no 
people.
    So we are going to address this, and we are going to try to 
do this one right.
    You have covered your four points?
    Governor Shumlin. Yes.
    Senator Inhofe. That is good. All right, Senator 
Whitehouse.
    Senator Whitehouse. I will just second the Chairman's 
remarks. I am actually not an opponent of earmarks, I am a 
great fan of my senior Senator, Jack Reed, who is our Rhode 
Island appropriator. I would think that his judgment about 
where Federal money should be spent in Rhode Island is probably 
a good deal better than the bureaucrats in all these various 
departments.
    But my point was, we don't need to have that fight to have 
a good projects of national and regional significance portion 
of this bill. But I am with the Chairman on that fight, and 
particularly as it applies to these transportation issues.
    I think my questions have been adequately answered. I would 
just put on the record that we got a full answer from Governor 
Bentley under the Chairman's request. Governor Shumlin was 
nodding vigorously throughout, but didn't have a chance to say 
anything. So I would just offer him a chance, if he had any 
comments to make on this, in addition. Otherwise, I think the 
record is clear that the Governors before us were in accord on 
this subject.
    Governor Shumlin. I think we are in your court. The only 
point I would make that hasn't been made in terms of this 
conversation generally is, when we talk about reinvigorating 
the trust fund, which we all know was created in 1958, has 
served us well, that was a time when we were building 
infrastructure for the first time in America. It is what made 
this Country great. It is what made us the most powerful 
economy in the world. We couldn't have done it without that 
infrastructure investment, without that trust fund. I think 
Governors are united on that.
    Senator Inhofe. The first covered bridges, you are talking 
about?
    Governor Shumlin. The first covered bridges, you have it. 
And the challenge we face now from just big picture for a 
second, because sometimes we get into the weeds on how we 
should allocate the money, and I suspect that all 50 Governors 
would agree on this one, is that we have two things facing us. 
The first is obviously the aging infrastructure, the fact that 
what we built so effectively in the late 1950's, early 1960's 
across the Nation is now crumbling.
    But the other challenge I am facing, I can tell you, and I 
bet other Governors are facing it too, is the weather 
challenges have made the transportation infrastructure more 
vulnerable than I believe it was when we built the 
infrastructure. I can tell you, as a Governor who has served 
for 4 years now, I have managed three really devastating 
storms, the toughest storms that Vermont has ever seen in our 
history. We lost, in our teeny little State of Vermont, we lost 
hundreds of miles of roads. We lost 34 bridges. We saw 
infrastructure destroyed, not only in Irene, but in two 
separate, significant storms. This was created by just the kind 
of rain that we have never seen in Vermont, where we would 
suddenly get these what I call Costa Rican style deluges of 10, 
12 inches of rain dumped on our little State in a matter of 
hours. Just didn't used to happen that way.
    So we have to remember that we have crumbling 
infrastructure, we have a climate that is really putting 
additional pressure on all the assumptions we made about where 
we put roads, where we put bridges. Suddenly we have flooding 
challenges in places that never had them before.
    Senator Whitehouse. Governor, can I jump in on that? 
Because there is an interesting statistic, I think it comes out 
of the national property casualty insurance industry. If you 
look at the number of billion dollar storm and weather 
disasters that the Country has had in recent decades, in the 
1980's, every year those billion dollar disasters numbered zero 
to five. That was the range in the 1980's. You had none or 
maybe you had as many as five. But that was the range.
    By the 1990's, the range was three to nine billion dollar 
disasters every year. A minimum of three, a maximum of nine. By 
the 2000's, the range was two to 11 billion dollar disasters 
each year. In the 2010 decade so far, it has been six to 
sixteen.
    So the point that the Governor is making about what he has 
seen in Vermont is one that we are seeing all across the 
Country and we have seen it in Rhode Island with 100-year 
storms appearing one after another, certainly not 100 years 
apart. I yield back my time.
    Senator Inhofe. Senator Rounds.
    Senator Rounds. Thank you, Mr. Chairman. I agree with the 
Senator from Rhode Island when it comes to the issue of who 
should be making the decisions. I like the idea of providing 
ample opportunity for the States and local governments to make 
those decisions about where the dollars should be spent.
    I think we should be very liberal when it comes to allowing 
the States, recognizing their ability to make good decisions 
for their citizens about infrastructure development.
    I was going to go to Secretary Bergquist just for a moment 
and talk a little bit about some of the common sense things 
that States do or would like to be able to do if provided the 
opportunity. I think when we go back to taxpayers, when we talk 
about additional revenue sources and so forth, one thing they 
want us to do is deliver as efficiently as possible those 
needed infrastructures or those needed bridges, roads and 
everything that comes with it.
    Part of that means making good decisions about how we spend 
the dollars. Sometimes I think good advice coming from the Feds 
is just that, it is advice. But it shouldn't necessarily be 
requirements. There should be ample opportunity for States and 
departments of transportation to make good choices about what 
they want that infrastructure to look like.
    I am just wondering if the Secretary could share a little 
bit about some of the efficiencies that might be able to be 
found if some of the red tape was eliminated, or at least some 
of the restrictions on the use of those funds, that could be 
examined. Would you care to comment on that a little bit?
    Mr. Bergquist. Sure, if I might, Mr. Chairman. Two 
immediate things come to mind, Senator Rounds. One, I followed 
with interest your dialog with Secretary Foxx earlier on the 
need to further streamline the review process that goes into 
projects. As Secretary Foxx indicated, there were certainly 
improvements that were made as part of MAP-21. I would welcome 
the opportunity to continue to work with the Federal Highway 
Administration on further refining that process. I think there 
are still additional enhancements that can be made to that, to 
shorten that time period so we don't have the problem of the 
projects taking so long to deliver that can can't actually 
start construction until, whether it is a 2-year or 5-year 
bill, until that bill is over. I think that is one of the areas 
of opportunity.
    The other area that I see as an opportunity, and I touched 
on an example of that earlier in my statement, is the balance 
between the funds and resources that you invest in collecting 
data and reporting and those types of things versus what 
actually goes into asphalt and concrete and bridges. I 
mentioned the case, or the potential requirement to gather all 
the data on our gravel and dirt roads, which you are very 
familiar with. I am not sure that is the best use of those 
funds, when we have bridges, you mentioned the bridge numbers 
in South Dakota, we have over 1,000 that need to be replaced. 
That money may be better spent there.
    Governor Shumlin. I think, Senator, your question on 
efficiency and how we can all work together to use our 
transportation dollars better is right on. I know that I for 
example have been successful doing a couple of things that 
really made a difference for how we spend our limited dollars 
in Vermont. One, when I became Governor, I found that there 
was, frankly, a rivalry between, or lack of communication and 
often real annoyance between our Agency of Natural Resources 
folks and my Transportation folks. My Transportation folks 
would go out and get ready to build a bridge or build a road, 
and they felt like the ANR folks would come in and go searching 
for arrowheads or whatever, and they were all fighting and 
carrying on and it would take years to do anything. They would 
let the blueprints just pile up in the offices. I said, we have 
to end this.
    So my State offices got flooded in Irene. So all the State 
offices were wiped out, destroyed. I used that as an 
opportunity when I reorganized them to put them in the same 
office building. They had to eat lunch together in the same 
cafeteria. And guess what? They found out they like each other. 
They are working much more effectively together to get the job 
done.
    So now our ANR folk will go out with our engineers, they 
will go on the ground together and make the decisions on the 
ground that sometimes took t here years; they now take 3 days. 
So it is a big difference.
    The other piece is technology. I just want to mention that. 
Governors are embracing across the Country smarter ways to do 
things, more efficient ways to do things. And residents are 
willing, if they understand it saves them tax dollars, to be 
more patient.
    I will give you an example. We have cut the cost of our 
bridges, building bridges significantly by saying to citizens 
wherever we can, instead of building a detour bridge, which you 
have to go through permitting, takes forever, huge costs. And I 
bet you anything Secretary Bergquist is doing the same thing. I 
have my Secretary Minter here, she could speak more eloquently 
about this. But we literally say to residents, if you would let 
us close that bridge for six to eight, 12 weeks, we can rebuild 
that bridge in that period of time. And you come in with these 
pre-fab bridges or you use the technologies for literally half 
the price or a quarter of the price and much less time.
    So we are all interested in finding ways to be more 
efficient, to cut red tape. States can do it, the Feds can do 
it. Together we could use our dollars more effectively.
    Senator Inhofe. That is good.
    Senator Boozman. Very quickly, Mr. Chairman, following up 
on Senator Rounds. The committee worked really hard under 
Senator Boxer's and Senator Inhofe's leadership in trying to 
identify things to cut the red tape. The problem is that some 
of those things don't come under our jurisdiction. So we can 
cut red tape here. What I would really like for you all to do 
and our comrades is come up with the things you mentioned, the 
State problems that we have sometimes, and also other Federal 
problems that aren't under the jurisdiction of the committee, 
so that we can work with those committees in the next 
reauthorization, which hopefully will happen very soon. And 
then again make sure that we do that.
    We have talked about the challenges of getting more money 
into the system. This is a way to save tremendous amounts of 
money. We have examples. I got to go visit the bridge that fell 
down in Milwaukee. That thing was rebuilt in a year. That would 
be a 10-or 20-year project, probably. But again, because of the 
necessity the agencies worked together. We didn't have the 
``gotcha'' attitude. It was, how can we help you get this thing 
done.
    So we have great models. But we really would appreciate 
your input. I believe very strongly that the input needs to 
come from you all, you are on the ground fighting the battle. 
No one can tell us better, from your experiences.
    If you would do some homework, I will give you a little bit 
of responsibility in that regard, that would be very, very 
helpful to the committee. And I hope, Mr. Chairman, that we can 
work with other committees that have some jurisdiction in that 
area and with the States and try and figure out how we can move 
the projects forward. Thank you.
    Senator Inhofe. Senator Boozman, we had a similar situation 
right across your border into Oklahoma, when the barge ran into 
the bridge, you might remember that. We actually rebuilt that 
thing in one half the time it normally would have taken. And we 
have been making a steady case out of that also.
    So necessity is the mother of virtue or something like 
that. Hopefully that will work.
    I just want to make one further comment because I know 
there is misunderstanding here when we talk about the way this 
system works. But there is a reason that we do it the way we do 
it. All the States don't do it exactly the same. In my State of 
Oklahoma, as those people behind you can tell you, we will list 
a number of projects. We will have people going out with eight 
transportation districts in my State of Oklahoma, make their 
own priorities, so that really, my job isn't so much to see 
what needs to be done in the State of Oklahoma, it is where 
those priorities come from the State. And people just overlook 
that.
    So that is one of the systems that does seem to work well. 
Hopefully we are going to be able to do a really good job with 
this bill.
    So any further comments you want to make, any closing 
comments?
    Governor Shumlin. Mr. Chair, I want to thank you and the 
committee members. You have a tough job. And it is an 
incredibly important job. I just want to say that the 
Governors, all 50 of us, on a bipartisan basis, will partner 
with you in any way that can be useful to get predictability, 
get the trust fund reauthorized and give us certainty. I think 
it is in all of our interest.
    Senator Inhofe. Within your States. I think that is so 
important that we do that.
    Governor Shumlin. Absolutely.
    Senator Inhofe. I think that there is another thing you can 
do too, and that is apply the pressure necessary to our own 
elected people to let them know what their No. 1 priority is. 
If you run out of things to say, I will give you an idea.
    [Laughter.]
    Senator Inhofe. To use the constitutional argument, Article 
I, Section 8, that is what we are supposed to be doing here.
    So I have heard it say many times before, when people were 
trying to make comments about how conservative they are or 
something like that, when it gets right down to transportation, 
I have heard them say, oh, I wasn't talking about 
transportation. So it is something we are going to deal with.
    What I wouldn't like to see is have a system change where 
you take States out of the system. You are the ones who know 
where the priorities are, what needs to be done and you know 
where your members, your elected officials live. So that would 
be very helpful.
    Senator Rounds, did you have any further comment?
    Senator Rounds. Mr. Chairman, just to echo what you are 
suggesting, sir.
    Senator Inhofe. Well, thank you both very much for being 
here. We appreciate it. We are adjourned.
    [Whereupon, at 11:45 a.m., the hearing was adjourned.]
    [Additional material submitted for the record follows.]

             Statement of Hon. Jeff Sessions, U.S. Senator 
                       from the State of Alabama

    Thank you Chairman Inhofe for holding today's hearing. As 
our committee begins the process of examining MAP-21 
Reauthorization, I look forward to working closely with State 
and local officials to making sure that Alabama families and 
workers can continue to rely on a safe, effective, and fiscally 
sound transportation infrastructure system.
    The solvency of the Highway Trust Fund is a serious issue 
that deserves Congress's attention. But as we begin to consider 
potential ways to address this issue, we should recognize that 
Americans deserve more transparency with regard to how their 
transportation moneys are spent--the Federal Highway 
Administration obligated $41 billion in fiscal year 3, an 
enormous sum. We need to root out unnecessary expenditures in 
an era of scarce public dollars.
    For example, last October, in response to a request from 
Senator Vitter, the Government Accountability Office (GAO) 
issued a report titled Highway Trust Fund: Department of 
Transportation Has Opportunities to Improve Tracking and 
Reporting of Highway Spending. In the report, GAO observed that
    ``[w]hile Highway Trust Fund dollars are used for a wide 
range of activities, such as road or bridge improvements, 
information about these activities is not readily available to 
Congress and the public.''
    The report further observed that
    ``DOT's annual fiscal-year budget reports provide 
information on total spending at the program level, but do not 
provide detailed information about the types of activities and 
administrative expenses funded with the Highway Trust Fund 
moneys.''
    Notably, the GAO report found that the Federal Highway 
Administration does not collect and report aggregate spending 
data for non-``major'' projects, which represented nearly 88 
percent of all fiscal year Federal-aid highway obligations.
    The GAO report confirms that while the long-term solvency 
of the Highway Trust Fund is a real problem, Federal agencies 
need to do a better job at demonstrating to Congress and the 
American people that limited taxpayer dollars for 
transportation are being used efficiently and effectively.
    I am glad this Committee recognizes the fiscal issues 
surrounding the Highway Trust Fund as well as the importance of 
transportation infrastructure to our states and local 
communities. In Alabama, the I-10 Bridge in Mobile is a 
critical link for the transportation of goods and services 
throughout the country, yet traffic congestion leads commercial 
drivers to avoid the bridge and pursue longer, costlier routes. 
Any Federal transportation bill should provide State and local 
authorities the flexibility to make sure that vital projects 
like the I-10 Bridge can serve their communities in a way that 
meets the nation's commercial needs.
    I also appreciate the efforts State and local organizations 
take to make sure that our road systems are safe and built as 
cost-effectively as possible. In particular, the National 
Center for Asphalt Technology at Auburn University is working 
with the Minnesota Department of Transportation to help develop 
technologies, pavement systems, and construction methods that 
lead to safer, quieter, lower-cost and longer-lasting roads. In 
a time of limited budgetary funds, these organizations are 
leading innovative efforts to provide safe roads in a fiscally 
sound manner, and their commitment to cost-effective research 
should be an example for State and Federal agencies throughout 
the country. I look forward to leveraging such resources in 
lowering the costs of the Highway Trust Fund in future years 
while continuing to ensure we have the transportation links our 
economy requires to thrive.
    Again, thank you Chairman Inhofe for holding this hearing.
     [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]

                     [all]
</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
